Key OIG Accomplishments in This Reporting Period

RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES

Reports Issued

  Number of Reports............................................................................................. 38

  Number of Recommendations..........................................................................172

Management Decisions Made

  Number of Reports............................................................................................. 25

  Number of Recommendations..........................................................................233

Total Dollar Impact (Millions)

Of Management-Decided Reports.....................................................................$11.4

  Questioned/Unsupported Costs.................................................................... $11.3

  Funds To Be Put to Better Use........................................................................ $0.1



SUMMARY OF INVESTIGATIVE ACTIVITIES

Reports Issued....................................................................................................155

Impact of Investigations

  Indictments......................................................................................................171

  Convictions.......................................................................................................101

  Arrests..............................................................................................................453

Total Dollar Impact (Millions)...........................................................................$43.5

Administrative Sanctions....................................................................................... 58



OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2006)

■	 Interagency Communications, Coordination, and Program Integration Need Improvement
	 Related material can be found on pages 11 and 14.
■	 Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed
	 Related material can be found on pages 5, 12–14, and 16–17.
■	 Continuing Improvements Needed in Information Technology (IT) Security
	 Related material can be found on pages 9 and 15.
■	 Implementation of Improper Payments Information Act Requirements Needs Improvement
	 Related material can be found on page 16.
■	 Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
	 Related material can be found on pages 1–2.
■	 Departmentwide Efforts and Initiatives on Genetically Engineered Organisms (GEO) Need To Be Strengthened
	 Related work is ongoing in FY 2007; see page 4.
■	 USDA’s Response to the 2005 Hurricanes Needs Ongoing Oversight
	 Related material can be found on pages 10–11.
Message From the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Office of Inspector General
(OIG), U.S. Department of Agriculture (USDA), for the 6-month period that ended March 31,
2007. During this reporting period, we conducted successful investigations and audits that led to
453 arrests, 101 convictions, $43.5 million in recoveries and restitutions, 142 program improvement
recommendations, and $11.4 million in financial recommendations. This report summarizes the
most significant OIG activities during the period by our three strategic goals:

   n	 Safety, Security, and Public Health – Our audit work determined that the Animal and Plant
      Health Inspection Service needed to strengthen its policy guidance over agricultural inspection
      activities and that USDA had successfully implemented key homeland security initiatives and
      directives. Our investigative work saw convictions or pleas and recoveries related to violations
      of the Federal Endangered Species Act and food safety laws.

   n	 Integrity of Benefits and Entitlements Programs – Our audit work found that indemnity
      payments of $2.3 million in a crop insurance pilot program were unsupported and that errors in
      loss adjustments on crop insurance indemnity payments were made on citrus crops in Florida.
      Our investigative work resulted in convictions and money recoveries for schemes to defraud the
      Food Stamp Program, National School Lunch Program, Child and Adult Care Food Program,
      Market Access Program, and farm and rural development loan programs.

   n	 Management of Public Resources – Our audit work found that Forest Service’s escalating
      costs to fight wildfires were largely due to its efforts to protect property in the wildland urban
      interface and that the Foreign Agricultural Service needed to complete a Global Market Strategy
      to increase the Nation’s agricultural exports. The USDA consolidated financial statements
      for FY 2006/2005 received an unqualified audit opinion for the fifth consecutive year. In
      the information technology area, the Office of the Chief Information Officer’s Information
      Technology Services (ITS) received a qualified opinion on its internal control structure and its
      effectiveness. In our ongoing effort to determine USDA’s compliance with Improper Payments
      Information Act of 2002 (IPIA) requirements, we found that implementation of IPIA needs
      improvement in two USDA agencies.

While the Department has been a leader in providing support to the Gulf Coast region following the
2005 hurricane season, such large and, by necessity, quick outlays of funds can be subject to increased
risk for fraud. In our 18 investigations in Mississippi and Louisiana concerning cases in which USDA
agencies were defrauded by individuals to obtain disaster benefits, 37 individuals have been indicted,
9 of whom have pled guilty and been sentenced. Our audits found that unnecessary housing assistance
was provided to hurricane victims and that USDA needs a response and recovery plan for future grain
transportation disruptions.

These results would not be possible without the strong interest and support of the Secretary, the
Deputy Secretary, and the Congress. I speak for the entire OIG in expressing our appreciation for
their work to improve the integrity and efficiency of the Department’s programs and operations.




Phyllis K. Fong
Inspector General
Contents
Safety, Security, and Public Health. . . . . . . . . . . . . . . . . . . . . 1

Integrity of Benefits and Entitlements Programs . . . . . . . . . . . 5

Management of Public Resources. . . . . . . . . . . . . . . . . . . . . 9

Gauging the Impact of the OIG . . . . . . . . . . . . . . . . . . . . . . 22

Abbreviations of Organizations . . . . . . . . . . . . . . . . . . . . . . 38
Safety, Security, and Public Health

OIG Strategic Goal 1:                                                    EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                                         WORK FOR GOAL 1
Support USDA in the enhancement of safety                                Animal and Plant Health Inspection Service
and security measures to protect USDA and                                (APHIS) Needs To Strengthen Its Policy
agricultural resources and in related public                             Guidance Over U.S. Customs and Border
health concerns                                                          Protection’s (CBP) Agricultural Inspection
                                                                         Activities
To help USDA and the American people meet the
critical challenges in safety, security, and public health,              USDA OIG teamed with the Department of Homeland
it is our responsibility in OIG to provide independent,                  Security (DHS) OIG to evaluate the post-transition
professional audits and investigations in these areas. Our               effectiveness of APHIS and CBP in safeguarding U.S.
work addresses such issues as the ongoing challenges of                  agriculture from incursions by foreign pests and diseases.
agricultural inspection activities, safety of the food supply,           The audit disclosed that the two Departments had made
and homeland security.                                                   progress in correcting the deficiencies noted in previous
                                                                         audits, resolving several outstanding recommendations.
   In the first half of fiscal year (FY) 2007, we devoted                Based on issues identified in the new review, however,
17.0 percent of our total audit and investigative direct                 DHS OIG issued several recommendations to CBP
resources to Goal 1, with 95.0 percent of these resources                to improve operational areas at the ports of entry. In
assigned to critical/high-impact work. A total of 56.3 percent           response to USDA OIG recommendations, APHIS agreed
of our audit recommendations under Goal 1 resulted in                    to issue policy guidance to clarify CBP’s responsibilities
management decision within 1 year, and 68.4 percent of                   for Transportation and Exportation permits that allow
our investigative cases had criminal, civil, or administrative           prohibited and restricted agricultural commodities to be
action taken. OIG issued three audit reports under                       trans-shipped across the country to foreign destinations
Goal 1 during this reporting period. OIG’s investigations                and for the handling of seized agricultural products at
under Goal 1 yielded 12 indictments, 12 convictions, and                 ports of entry. APHIS also agreed to develop a process
about $625,716 in monetary results during this reporting                 to allow both agencies to assess the risk of agricultural
period.                                                                  products entering the country by rail. In addition, we are




      Management Challenges Addressed Under Goal 1

      n	     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2 and 3)

      n	     Continuing Improvements Needed in IT Security (also under Goal 3)

      n	     Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained

      n	     Departmentwide Efforts and Initiatives on GEOs Need To Be Strengthened




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half      
                                                               Goal 1




working to resolve the remaining recommendations from a                 fruit flies), and an inflated quality grade of stone fruit. The
previous audit of agricultural inspection activities. (Audit            investigation resulted in two criminal convictions, four civil
Report No. 33601-07-Ch, Review of CBP’s Agriculture                     judgments, and asset forfeiture and fines totaling $95,225.
Inspection Activities)
                                                                        Meat Processing Plant Agrees To Pay More
Owner and Corporation Plead Guilty                                      Than $100,000 in a Civil Settlement for
to Defrauding Bovine Spongiform                                         Falsifying Fat Content in Sausage Products
Encephalopathy (BSE) Surveillance Program
                                                                        In October 2006, a former federally inspected facility entered
An Arizona meat processing company and its owner pled                   into a settlement agreement with the U.S. Attorney’s Office,
guilty in February 2007 to charges of theft of Government               District of Maine. The agreement required the firm to pay
funds, mail fraud, and wire fraud. The owner and his                    to the United States more than $100,000 for selling a variety
company defrauded the BSE Surveillance Program when                     of meat products that exceeded Federal standards for fat
they falsified BSE Surveillance Data Collection Forms and               content and for falsifying required test results. In April 2004,
then submitted payment requests to USDA for the services.               a former quality assurance manager of the firm was found
In addition to the targeted sample population (those cattle             guilty of obstruction of justice and was sentenced to serve a
that were more than 30 months old or had other risk factors             prison term, followed by supervised release, and ordered to
for BSE), the owner submitted to USDA, or caused to be                  pay a $3,100 fine.
submitted, BSE obex (brain stem) samples from healthy
USDA-inspected cattle. As a result, the owner fraudulently              Texas Businessman Sentenced for Making
received approximately $390,000. Sentencing is scheduled                False Statements and Claims To Obtain USDA
for May 2007.                                                           Commodity Contracts for Nonfat Dry Milk
                                                                        Valued at More Than $1.5 Million
Investigation Uncovers $5.2 Million in
Illegally Exported Fruit                                                In November 2006, an El Paso, Texas, businessman and
                                                                        his company independently pled guilty to making false
From April 2000 to November 2006, agents and investigators              statements to USDA. The businessman, on behalf of his
of OIG and APHIS’ Investigative and Enforcement Services                company, submitted false statements to USDA from October
conducted an investigation into the illegal exportation of              2003 to November 2004 to obtain contracts to purchase over
apples and stone fruit into Mexico from the United States.              1.5 million pounds of nonfat dry milk from the Commodity
In a cooperative effort between the Governments of the                  Credit Corporation (CCC) at a reduced price of $511,686, a
United States and Mexico, the investigation identified                  discount of more than $1 million. By failing to produce the
approximately 480 truckloads of illegally exported fruit                required product for human consumption, the businessman
valued at over $5.2 million. The investigation disclosed                did not fulfill the contract requirements. The company falsely
that seven marketing firms and three freight-forwarding                 certified that the product was for human consumption and that
firms conspired to circumvent international treaties                    it was licensed to process products for human consumption.
and minimum reference price requirements by using                       Instead, the milk was used in the production of animal feed.
counterfeit U.S. Government Phytosanitary Certificates.                 In January 2007, the businessman made the first installment
The counterfeit certificates were used to falsely certify               ($50,000) of a $100,000 court-ordered forfeiture, and the
inspections of the illegally exported fruit, the charging of            businessman and his company were sentenced to 36 months
the minimum reference price on apples, the performance                  of probation. Based on its claim of insolvency, the company
of cold treatment (cooling fruit to eliminate the risk of               was assessed no fine or restitution.




      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                              Goal 1




USDA Implements Homeland Security                                      Emergency Response Program
Initiatives and Directives
                                                                       OIG’s Emergency Response Program (ERP) consists of two
Our review found that the Department had completed                     teams with unique missions, the Emergency Response Team
its required actions in implementing sections 17 and                   (ERT) and the Wildland Fire Investigations Team (WFIT).
8(b) of Homeland Security Presidential Directive-9. This               ERT responds to and investigates threats or attacks against
directive established a national policy to protect the U.S.            the Nation’s food supply, agriculture infrastructure, or USDA
agriculture and food system in the event of emergencies                interests; and provides expertise to government agencies at all
such as bioterrorist attacks or major disasters. Section               levels. In December 2006, ERT attended AgTerror training in
17 requires USDA to make recommendations to the                        Tennessee, sponsored by DHS in cooperation with Kirkwood
President’s Homeland Security Council about financial                  Community College. Members were certified by DHS to
risk management tools that encourage self-protection for               conduct AgTerror awareness training. Also in December
vulnerable agriculture and food enterprises, while section             2006, the team participated in advanced Crime Scene
8(b) emphasizes the need for monitoring and surveillance               Processing training, using agriculture-related scenarios.
programs to track commodities.
                                                                          During this reporting period, members of ERT worked
   We also reviewed USDA’s role in implementing a                      closely with and participated on the FBI’s Joint Terrorism
requirement of the Public Health Security and Bioterrorism             Task Forces, the FBI-sponsored Agro-Terrorism Working
Preparedness Response Act of 2002 that would facilitate                Groups, and the U.S. Attorney’s Offices’ Anti-Terrorism
the tracing of commodities to the original vendor/facility             Advisory Councils. In addition, members of the ERT
after a disaster. Although the Act requires the Food and               regularly participated in working groups with State and
Drug Administration (FDA) to register and monitor such                 local law enforcement agencies and first responders to
vendors/facilities, we suggested that the Department could             educate and foster cooperation to ensure the safety of the
play a key role in strengthening the safety and security of            Nation’s crops and food supply. ERT members provided
this process by providing information to FDA on vendors/               presentations to task forces and working groups on its
facilities that conduct business with the Department but               role in an agricultural event and participated in tabletop
have not registered. (Audit Report No. 50701-2-KC, USDA                exercises to prepare for such an event.
Homeland Security Initiatives and Directives)
                                                                           OIG is mandated by law to investigate any Forest Service
Corporate Shareholder Sentenced for Illegal                            (FS) firefighter deaths caused by wildfire entrapment or
Sale of Ocelot                                                         burnover and report to Congress and the Secretary of
                                                                       Agriculture on the results. Participation on WFIT is a
As reported last period, in April 2006, an Oregon woman                collateral duty for team members and requires a great deal of
was sentenced to 30 days in prison and ordered to make a               commitment due to the unique training requirements of the
$25,000 community service payment for illegally offering               position. Members undergo extensive training that includes
to sell an ocelot, which is protected under the Federal                attending the Basic Fire Academy located in Boise, Idaho.
Endangered Species Act. During this period, in January                 The Basic Fire Academy incorporates training in Incident
2007, the shareholder of a California corporation that                 Command, Basic Wildfire Suppression Orientation,
conducted business with the Oregon woman was sentenced                 Firefighter Training, and Introduction to Wildland Fire.
after an August 2006 guilty plea to illegally offering to              In addition, WFIT members attend the National Wildfire
sell ocelots. The corporate shareowner was sentenced to                Investigation Training Program, conducted by the Federal
24 months of supervised release and ordered to make a                  Law Enforcement Training Center, as well as the Bureau of
$60,000 community service payment to the Oregon Zoo                    Land Management’s Serious Accident Investigation Training.
Endangered Species Justice Fund.                                       In October 2006, the Esperanza Wildland Fire in California
                                                                       resulted in the deaths of five FS firefighters by entrapment or
                                                                       burnover. The WFIT investigation of these firefighter deaths
                                                                       is ongoing.




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half          
                                                                   Goal 1




GOVERNMENTWIDE ACTIVITIES – GOAL 1

Participation on Committees, Working Groups, and Task Forces

n	An OIG investigator is serving on the Maryland Agriculture                     to terrorist intelligence to OIG and other agencies and
   Working Group, sponsored by the Federal Bureau of                              offices within the Department.
   Investigation’s (FBI) Weapons of Mass Destruction
                                                                            n	During the reporting period, the Inspector General (IG) and
   coordinator for the Baltimore Division. The group
                                                                               OIG staff participated in the President’s Council on Integrity
   consists of law enforcement, emergency management,
                                                                               and Efficiency (PCIE) Homeland Security Roundtable. Since
   and public safety officials from Federal, State, and local
                                                                               June 2005, the roundtable, consisting of members from the
   governments within the FBI’s Baltimore investigative
                                                                               inspector general community, has met to discuss a variety of
   jurisdiction (Maryland and Delaware). The group is writing
                                                                               matters related to homeland security. Ongoing OIG audit and
   a communications plan to assist in coordinating and
                                                                               investigative efforts related to Hurricane Katrina have been
   responding locally to a food and/or agriculture event of
                                                                               coordinated through the roundtable. We have benefited from
   significance.
                                                                               sharing information and identifying best practices, offered
n	An OIG investigator is assigned to the FBI’s National Joint                 suggestions for a revised roundtable charter, and nominated
   Terrorism Task Force (NJTTF). The agent attends the NJTTF                   several topics for future joint projects.
   threat briefings and provides a variety of products related


ONGOING AND PLANNED REVIEWS FOR GOAL 1

Topics that will be covered in ongoing or planned reviews under Goal 1 include:
n	Farm Service Agency’s (FSA) port approval and inspection                 n	National Residue Program in cull cow plants (FSIS),
   process,                                                                 n	Animal Care inspection of breeders (APHIS),
n	Food Safety and Inspection Service (FSIS) meat, poultry,                 n	fresh product grading and certification (Agricultural
   and egg product inspections in Puerto Rico,                                  Marketing Service (AMS)),
n	egg processing inspection (FSIS),                                        n	oversight of the National Organic Program (AMS),
n	controls over APHIS pilot certifications,                                n	followup on APHIS licensing of animal exhibitors,
n	controls over permits to import agricultural products                    n	implementation of flood-control dam rehabilitation (Natural
   (APHIS),                                                                     Resources Conservation Service (NRCS)),
n	USDA’s controls over the importation and movement of live                n	USDA progress in enhancing agricultural biosecurity
   animals (APHIS),                                                             through diagnostic and reporting networks (APHIS, FSIS,
n	USDA’s implementation of the national strategy for                           and Cooperative State Research, Education, and Extension
   pandemic influenza (APHIS as lead),                                          Service (CSREES)),
n	avian influenza testing laboratories’ compliance with                    n	USDA’s role in the export of genetically engineered
   policies and procedures (APHIS),                                             agricultural commodities (Foreign Agricultural Service
n	soundness of BSE maintenance sampling (APHIS),                               (FAS), Grain Inspection, Packers and Stockyards
n	determination of actionable (nonexistent or rare in the                      Administration (GIPSA), APHIS, and AMS), and
   United States) foreign pests (APHIS),                                    n	USDA controls over genetically engineered animals/insect
n	FSIS’ Management Control System,                                             research (APHIS and Agricultural Research Service (ARS).
n	FSIS risk-based inspection,
n	implementation of Performance-Based Inspection System
   enhancements for specified risk material (SRM) violations and
   improved inspection controls over SRMs (FSIS and APHIS),


The findings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits and
investigations are completed.



      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
Integrity of Benefits and Entitlements Programs

OIG Strategic Goal 2:                                                   additional audits in this area that were ongoing during this
                                                                        period and should be issued in the next reporting period.
                                                                        OIG investigations under Goal 2 yielded 104 indictments,
Reduce program vulnerabilities and enhance                              74 convictions, and about $41.5 million in monetary results
integrity in the delivery of benefits to individuals                    during the reporting period.

OIG conducts audits and investigations to ensure or restore             EXAMPLES OF AUDIT AND INVESTIGATIVE
integrity in the various benefits and entitlements programs             WORK FOR GOAL 2
of USDA, including a variety of programs that provide
payments directly and indirectly to individuals or entities.            Adjusted Gross Revenue (AGR) Program
The size of these programs is daunting: the Food Stamp                  Indemnity Payments of $2.3 Million
Program (FSP) alone accounts for nearly $32 billion in                  Unsupported
benefits annually, while over $20 billion annually is spent on
USDA farm programs. Their intended beneficiaries include                The Risk Management Agency’s (RMA) AGR Program is
the working poor, hurricane and other disaster victims, and             a nontraditional crop insurance pilot program in which
schoolchildren, as well as farmers and producers. These                 producers insure their farm revenue against losses caused
programs support nutrition, farm production, and rural                  by natural disasters and market fluctuations. During
development. A good deal of our ongoing work in Goal 2 is               insurance years 2002 and 2003, 9 insurance providers in
expected to come to fruition in the second half of FY 2007.             18 States paid AGR indemnities of about $24 million. We
                                                                        reviewed 11 claims paid by 5 providers and found that 4
   In the first half of FY 2007, we devoted 47.5 percent                of the providers either had issued policies to producers
of our total audit and investigative direct resources to                whose eligibility was unsupported or paid indemnities
Goal 2, with 87.1 percent of these resources assigned to                for unsupported loss claims totaling $2.3 million. The
critical/high-impact work. A total of 91.9 percent of                   deficiencies were not noted or detected by the underwriting
our audit recommendations under Goal 2 resulted in                      review, the loss adjustor review, or the providers’ quality
management decision within 1 year, and 78.8 percent of                  control review prescribed by the Standard Reinsurance
our investigative cases had criminal, civil, or administrative          Agreement. Providers misunderstood, misinterpreted, or
action taken. OIG issued 13 audit reports under Goal 2                  overlooked requirements for obtaining required documents
during this reporting period. However, there are several                or conducting adequate reviews.



      Management Challenges Addressed Under Goal 2


      n	     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1 and 3)

      n	     Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also under Goal 3)

      n	     USDA’s Response to the 2005 Hurricanes Needs Ongoing Oversight (also under Goal 3)




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half          
                                                                Goal 2




Furthermore, RMA program managers were unaware of                            ordered to pay $4.9 million in restitution and forfeit
the deficiencies. In response to our audit, on February 15,                  $2.5 million in assets for food stamp trafficking. The
2007, RMA issued a notice to advise insurance providers                      grocery store owner was barred from participation in FSP
of the unacceptable documents that have been used and to                     for life. From January 1997 to August 2002, the grocery
clarify what documents are acceptable for substantiating                     store owner and the store’s manager were involved in a
AGR policies and claims. RMA agreed to analyze and, if                       food stamp benefit trafficking scheme that resulted in a
appropriate, seek recovery of the questioned indemnity                       potential loss to USDA of approximately $7 million.
payments. RMA will also ensure that review of the
policyholder files for pilot programs will be included in its            n	In October 2006, three individuals were ordered to pay
National Operations Reviews. (Audit Report No. 05601-4-                      a total of $1.1 million in restitution for their role in
SF, RMA AGR Program)                                                         committing food stamp trafficking via the Electronic
                                                                             Benefit Transfer (EBT) system by discounting large
Loss Adjustment Errors Made on Citrus Crops                                  amounts of EBT benefits for cash at a Newark, New
in Florida                                                                   Jersey, grocery store. One individual received 21 months
                                                                             of incarceration and the other two received probation
During 2004, Hurricanes Charley, Frances, and Jeanne                         for a term of 36 months each. This investigation was
in Florida resulted in crop insurance indemnity payments                     worked jointly with the U.S. Secret Service (USSS).
totaling $50 million for 1,144 citrus claims. Of the
21 citrus indemnity payments reviewed, totaling                          n	 In November 2006, a Philadelphia man was
$10.3 million, approved insurance providers who                              sentenced in U.S. District Court, Eastern District
administered the claims made loss adjustment errors on                       of Pennsylvania, to serve 36 months in prison and
15 claims that resulted in $325,943 in overpayments and                      36 months of probation, and was ordered to pay
$89,767 in underpayments. Loss adjusters did not always                      $510,658 in restitution. The man and his family
(1) verify crops’ insurability, (2) verify the number of                     had made false statements to numerous Government
trees, (3) verify crops’ risk class, (4) exclude production                  agencies to receive more than $500,000 in food stamps,
from uninsured acres, (5) sample trees from all groves,                      cash assistance, and medical benefits from August 1998
(6) appraise early and mid-season oranges separately, (7)                    through January 2006. This investigation was worked
compute claims correctly, or (8) use correct data when                       jointly with USSS, the U.S. Postal Inspection Service,
calculating claims. RMA agreed to review the erroneous loss                  and the Internal Revenue Service’s (IRS) Criminal
adjustment determinations and collect any monies owed                        Investigation (CI).
from the responsible insurance provider. (Audit Report No.
05099-27-At, Citrus Indemnity Determinations Made for                    n	 In October 2006, two owners and an employee of a
2004 Hurricane Damages in Florida)                                           Houston grocery store were sentenced in U.S. District
                                                                             Court, Southern District of Texas, for food stamp
Food Stamp Cases Yield Significant Jail Time                                 trafficking. The two owners were sentenced to serve
and Restitution                                                              37 months of imprisonment and ordered to jointly pay
                                                                             $421,025 in restitution. The judge also signed Preliminary
OIG concluded a number of food stamp trafficking                             Orders of Forfeiture for two sport utility vehicles valued
cases this reporting period that resulted in significant jail                at approximately $38,000. The store employee was
sentences and restitution:                                                   sentenced to serve 15 months of imprisonment and
                                                                             ordered to pay $1,859 in restitution. The owners and
n	In October 2006, the owner of a Chicago grocery store                     the employee had discounted EBT benefits for cash. This
      was sentenced in U.S. District Court, Northern District                investigation was worked jointly with USSS.
      of Illinois, to serve 57 months of incarceration, and




       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                            Goal 2




n	In January 2007, a Newark, New Jersey, food store                 Louisiana Department of Education for reimbursements in
    manager was sentenced to 33 months of imprisonment,              connection with CACFP.
    to be followed by 24 months of supervised release,
    for food stamp trafficking. In February 2007, a store            Two Pet Product Companies Agree To Pay
    employee was sentenced to 36 months of probation,                $736,000 for Ineligible Receipt of Market
    to include 6 months of home confinement. They were               Access Program (MAP) Funds
    ordered to pay restitution of $248,147 to USDA.
    From May 1998 to June 1999, the store redeemed                   In December 2006, two pet product companies agreed
    more than $2.8 million in FSP benefits, most of which            to a $736,000 civil settlement with the U.S. Attorney’s
    were fraudulent. In 2004, the store manager and                  Office, Eastern District of Pennsylvania, after they received
    employee were indicted in the District of New Jersey             approximately $600,000 in MAP funds for which they
    and charged with conspiracy to traffic in food stamp             were not eligible. MAP funds are distributed by FAS to
    benefits. The manager then fled to the Dominican                 promote worldwide use and sale of agricultural products by
    Republic until mid-2005, when he was extradited to               U.S. small businesses, and companies must meet the Small
    the United States to face the charges. Both subjects             Business Administration’s definitions of “small business.”
    subsequently entered guilty pleas.                               In this case, the companies are affiliated, and the larger
                                                                     company employs more than 2,300 people with yearly
New Jersey School Agrees To Pay                                      revenues approaching $1 billion, thereby making the first
$1.3 Million for Committing National School                          company ineligible to receive MAP funds..
Lunch Program (NSLP) Fraud
                                                                     Georgia Producer Ordered To Pay $112,741
In October 2006, a civil settlement agreement was reached            for Conversion of Mortgaged Property
with a Lakewood charter school and the U.S. Attorney’s
Office, District of New Jersey. The school agreed not to             In December 2006, a producer in Lenox, Georgia, was
seek reimbursement for $895,550 in claims being held in a            sentenced in U.S. District Court, Middle District of Georgia,
suspense account and agreed to pay an additional $400,000            to 18 months of imprisonment and ordered to pay $112,741
for losses to NSLP, a total of $1,295,550 altogether.                in restitution for conversion of mortgaged property. In May
From 1996 to 2000, the school had defrauded NSLP of                  2002, the producer received a farm-operating loan from
approximately $1.3 million by submitting numerous false              FSA secured with the producer’s cotton, grape, peanut, and
certifications to New Jersey’s Bureau of Child Nutrition             wheat crops. The producer harvested the crops and converted
regarding student participation levels in NSLP.                      approximately $74,000 in sales proceeds to his own use.

Day Care Facility Owner in Louisiana                                 Oklahoma Man Sentenced to Prison, Ordered
Sentenced to Federal Prison, Ordered To Pay                          To Pay $3.8 Million in Restitution for Obtaining
$617,057 in Restitution for Child and Adult                          Loans Using Falsified Documents
Care Food Program (CACFP) Fraud
                                                                     In January 2007, a former chief financial officer for an
In November 2006, the owner of a daycare facility in                 Okemah manufacturing company was sentenced in
Monroe, Louisiana, was sentenced in U.S. District Court,             U.S. District Court, Northern District of Oklahoma, to
Western District of Louisiana, to 87 months in prison,               40 months of imprisonment and 60 months of supervised
ordered to pay $617,057 in restitution, and fined $4,700.            release, and ordered to pay $3.8 million in restitution for
In July 2006, after pleading guilty to two counts of mail            obtaining Rural Development (RD) loans using falsified
fraud and one count of false statements, a manager of the            documents. The individual fraudulently obtained a
facility had been sentenced to 60 months of probation,               $2.9 million USDA-guaranteed loan and a $2 million
ordered to pay $142,143 in restitution, and fined $300.              line of credit loan from a bank in Stillwater, Oklahoma, as
From December 2003 through February 2004, the owner                  well as a loan from another bank in Nowata, Oklahoma,
and the manager submitted three false claims to the                  for $275,000. In January 2005, USDA paid the bank in
                                                                     Stillwater $1.8 million as a result of the defaulted loans.



                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half         
                                                               Goal 2




GOVERNMENTWIDE ACTIVITIES – GOAL 2

Participation on Committees, Working Groups, and Task Forces

n	OIG continues to work with the PCIE and Department                          guilty pleas, and forfeitures of proceeds directly
   of Homeland Security (DHS) Working Groups to                                linked to trafficking in EBT and WIC benefits. The task
   coordinate investigative efforts related to Hurricanes                      force is expected to continue through FY 2008.
   Katrina and Rita. OIG investigators worked to
                                                                        n	An OIG investigator has been working with the FBI’s Safe
   coordinate a request from the U.S. Department
                                                                           Streets Task Force in Indianapolis, Indiana, since 2000.
   of Housing and Urban Development (HUD) OIG to
                                                                           The mission of the task force is to deter street gang and
   enter into a computer-matching agreement with the
                                                                           drug-related violence, as well as seek the most significant
   Rural Housing Service (RHS) to identify improper
                                                                           fugitives wanted for crimes of violence through long-
   and fraudulent disaster assistance payments, similar
                                                                           term, proactive, and coordinated teams of Federal, State,
   to the agreement in place between HUD and DHS’
                                                                           and local law enforcement officers and prosecutors.
   Federal Emergency Management Agency (FEMA).
                                                                        n	An OIG investigator is participating on the Ohio Organized
n	OIG investigators are participating in a task force to
                                                                           Crime Investigations Commission (OOCIC) Task Force
   investigate criminal violations of FSP and the Special
                                                                           in Dayton. OOCIC provides assistance to local law
   Supplemental Nutrition Program for Women, Infants,
                                                                           enforcement agencies in the investigation of organized
   and Children (WIC). Members include the Michigan
                                                                           criminal activity. OIG investigators have participated
   State Police and IRS Criminal Investigation. The FBI
                                                                           in the OOCIC Dayton Task Force since 1996 and have
   and DHS’ Immigration and Customs Enforcement have
                                                                           conducted investigations involving welfare recipients, food
   provided assistance during warrant operations. The
                                                                           stamp trafficking, mortgaged farm equipment stolen from
   initiative has resulted in numerous warrant operations,
                                                                           farmers, stolen property trafficking, and dog-fighting.

ONGOING AND PLANNED REVIEWS FOR GOAL 2

Topics that will be covered in ongoing or planned reviews under Goal 2 include:
n	continued monitoring of EBT implementation (Food and                 n	penalties assessed for inaccurate reporting of crop
   Nutrition Service (FNS)),                                               insurance acreage (RMA),
n	Summer Food Service Program (FNS),                                   n	implementation of $500,000 claim decision process
n	WIC in Puerto Rico (FNS),                                               (RMA),
n	Food Stamp Employment and Training Program (FNS),                    n	Citrus Canker Eradication Compensation and Insurance
n	Child and Adult Care Food Program (FNS),                                Program (APHIS and RMA),
n	food stamp retailer authorizations (FNS),                            n	implementation of the Tobacco Transition Payment
n	FNS oversight of the National School Lunch Program,                     (Tobacco Buyout) Program (FSA),
n	WIC vendor monitoring (FNS),                                         n	programmatic treatment of crop base on land included in
n	Disaster Food Stamp Program for Hurricanes Katrina, Rita,               conservation easements (FSA and NRCS),
   and Wilma (FNS),                                                     n	interest assistance on guaranteed farm loans (FSA),
n	crop loss and quality adjustments for aflatoxin-infected             n	adjusted gross income limitation (NRCS),
   corn (RMA),                                                          n	emergency loan assistance (FSA),
n	Asian soybean rust claims (RMA),                                     n	effectiveness of status reviews in assessing producer
n	group risk crop insurance (RMA),                                        compliance with conservation provisions (NRCS and FSA),
n	catastrophic crop underwriting (RMA),                                n	price support provisions for pulse crops (seeds of legumes
n	prevented planting policy provisions (RMA),                             used as food) (FSA),
                                                                        n	Conservation Security Program (NRCS), and
                                                                        n	Farm and Ranch Lands Protection Program – nationwide
                                                                           selected nongovernmental organization (NRCS).


The findings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits and
investigations are completed.

      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
Management of Public Resources

OIG Strategic Goal 3:                                                   Goal 3, with 96.9 percent of these resources assigned to
                                                                        critical/high-impact work. A total of 93.1 percent of
                                                                        our audit recommendations under Goal 3 resulted in
Increase the efficiency and effectiveness with                          management decision within 1 year, and 65.6 percent of
which USDA manages and employs public                                   our investigative cases had criminal, civil, or administrative
assets and resources, including physical and                            action taken. OIG issued 22 audit reports under Goal 3
information resources                                                   during this reporting period. OIG investigations under
                                                                        Goal 3 yielded 55 indictments, 15 convictions, and about
OIG conducts audits and investigations that focus on, for               $1.4 million in monetary results during the reporting
example, improved financial management and accountability,              period.
IT security and management, protection of public assets,
employee corruption, natural resources, research, and the               EXAMPLES OF AUDIT AND INVESTIGATIVE WORK
Government Performance and Results Act. Our work in                     FOR GOAL 3
this area is vital because the Department is entrusted with
$128 billion in public resources annually and hundreds of               FY 2006 Office of the Chief Information
billions of dollars more in fixed assets such as the 192 million        Officer (OCIO) Information Technology
acres of national forests and wetlands. The effectiveness and           Services (ITS) General Controls Review
efficiency with which USDA manages its assets are critical.
USDA depends on IT to efficiently and effectively deliver               Our report contained a qualified opinion on the ITS internal
its programs and provide meaningful and reliable financial              control structure and its effectiveness, and we believe the
reporting. One of the more significant dangers USDA faces               findings constitute a material internal control weakness to
is a cyberattack on its IT infrastructure, whether by terrorists        be reported in the agencies’ (FSA, NRCS, and RD) Federal
seeking to destroy unique databases or criminals seeking                Managers’ Financial Integrity Act reports. ITS has begun to
economic gains.                                                         implement controls over the weaknesses we identified.

   In the first half of FY 2007, we devoted 35.5 percent                   We recommended that ITS ensure that security plans,
of our total audit and investigative direct resources to                risk assessments, contingency plans, and disaster recovery




      Management Challenges Addressed Under Goal 3

      n	     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1 and 2)

      n	     Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also under Goal 2)

      n	     Continuing Improvements Needed in IT Security (also under Goal 1)

      n	     Implementation of Improper Payments Information Act Requirements Needs Improvement

      n	     USDA’s Response to the 2005 Hurricanes Needs Ongoing Oversight (also under Goal 2)




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half         
                                                                 Goal 3




plans meet Office of Management and Budget (OMB),                             referrals from FSA and RD that involve larger monetary
National Institute of Standards and Technology (NIST),                        amounts of fraud or theft and more complex fraud
and Departmental requirements and be updated after                            cases. To date, OIG has conducted 18 investigations
major system changes. In addition, we recommended                             in Mississippi and Louisiana concerning cases in
ITS ensure that effective centralized change management,                      which FNS, FSA, and RD have been defrauded by
backup/recovery and vulnerability remediation, security                       individuals to obtain Hurricane Katrina disaster
incident handling, physical security, and security clearance                  benefits. From October 1, 2006, through February 6,
and hardware maintenance processes are in place and                           2007, 37 individuals were indicted, 9 of whom have
operational in accordance with OMB and NIST guidance.                         pled guilty and received sentences ranging from 24
We also recommended that inventory records be adequately                      months of probation to 12 months of incarceration.
maintained and Service Level Agreements contain all                           All of those sentenced were ordered to pay restitution,
information required by NIST. Further, we recommended                         ranging from $2,000 to $13,400.
that ITS effectively test, monitor, and audit backup/recovery
procedures and ensure that automatic notification of backups              n	 In one fraud case, in January 2007, a woman was
are turned on and reviewed weekly; develop interconnection                    sentenced in U.S. District Court, Southern District of
security agreements for all third-party connections to                        Illinois, to serve 48 months in Federal prison, followed by
the network that conform to NIST and OMB guidance;                            36 months of supervised release, and was ordered to pay
ensure timely removal of separated employees as well as                       $23,982 in restitution and a $1,100 fine. The woman had
the creation, modification, and deletion of user accounts                     obtained $23,000 in Hurricane Katrina housing, food
commensurate with their job responsibilities; and update                      stamp, and cash assistance to which she was not entitled.
all computer equipment with the latest security patches.                      She had also falsely claimed to have lost two children in
The agencies generally agreed with our recommendations                        Hurricane Katrina. The woman pled guilty in October
and are taking corrective actions. (Audit Report No. 88501-                   2006 to mail fraud and false statements.
7-FM, General Controls Review – FY 2006 OCIO ITS)
                                                                          n	 Unnecessary     Housing Assistance Provided to
OIG’s Continuing Response to the Gulf Coast                                   Hurricane Victims: In an audit focusing primarily
Region Hurricanes                                                             on the $54 million in loan and grant funds being
                                                                              disbursed to repair hurricane damage, we found that
In our last two semiannual reports, we have highlighted                       RHS and other Federal agencies had not coordinated
OIG’s continuing role with respect to Federal recovery                        activities to prevent the duplication of Government
efforts in the Gulf Coast region after Hurricanes Katrina                     housing assistance to victims. In addition, RHS had
and Rita. OIG auditors have several ongoing or planned                        not required victims to provide information about
reviews related to the hurricanes (see the end of this section                damage reimbursement from insurance companies
on Goal 3). OIG continues to work with the President’s                        and assistance from charitable organizations, resulting
Council on Integrity and Efficiency and DHS Working                           in some victims receiving assistance from both RHS
Groups to coordinate investigative efforts, maximize                          and other sources.
resources, and prevent duplicative work.
                                                                                 Our review disclosed about $320,000 in emergency
n	 OIG special agents working Hurricane Katrina Fraud                        grant funds were awarded for non-disaster repairs;
     Task Force investigations continue to receive referrals                  almost $70,000 were provided to victims for repairs
     throughout the country on individuals who have                           and improvements not related to health, safety, or
     submitted false claims or provided false statements to                   handicap accessibility; and unlicensed contractors
     obtain Federal benefits. As hurricane reconstruction                     were employed to repair almost $210,000 in damage.
     efforts proceed, OIG has begun receiving investigative                   Moreover, disaster funds were vulnerable to misuse at




  10    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                                 Goal 3




    some field offices because loan and grant applications                     disbursed. USDA incurred additional expenditures
    were received, reviewed, and approved by the same                          by awarding noncompetitive grants, even though a
    employee. Finally, RHS had not determined the                              substantial amount of the maximum available funds
    number of agency loan accounts in jeopardy of default,                     went unobligated.
    or the costs associated with uninhabitable properties
    that likely needed to be destroyed.                                           In response to audit recommendations, the FSA
                                                                               Administrator agreed to coordinate with the Under
       We recommended that for future disasters RHS                            Secretary for Farm and Foreign Agricultural Services,
    coordinate assistance with other Federal agencies,                         industry stakeholders, and other involved USDA
    obtain a formal Office of the General Counsel (OGC)                        and Federal agencies to develop and formalize a
    opinion regarding the proper use of disaster funds                         response and recovery plan for disruptions to the grain
    before distribution, require applicants to disclose                        transportation and storage system. (Audit Reports
    assistance received from insurance companies and                           Nos. 03601-21-KC and 03601-22-KC, Hurricane
    charitable organizations, and monitor field activities                     Relief Initiatives: Barge Movement and Alternative
    immediately after a disaster. (Audit Report No.                            Storage Agreements)
    04601-15-Ch, Controls Over Single Family Housing
    (SFH) Funds Provided for Hurricane Relief Efforts)                    Review of FY 2005 Congressional Earmarks

n	 USDA Needs Response and Recovery Plan for Future                      In response to a congressional request, our review
    Grain Transportation Disruptions: OIG found that                      determined that in FY 2005 the Department had 1,167
    USDA needed a response and recovery plan to relieve                   congressional earmarks (funds designated for specific
    disaster transportation congestion. After Hurricanes                  projects), totaling $1,338,873,451. We also found that the
    Rita and Katrina, USDA developed four initiatives to                  Department did not have a formal process for compiling
    alleviate transportation congestion on the Mississippi                earmark fund totals and dollar amounts that are reported to
    River: providing grants for moving damaged corn                       the Secretary. Because OMB has recently issued guidance
    from New Orleans, promoting alternative warehouse                     concerning the treatment of earmark funds, we did not
    storage, moving agricultural commodities through                      make any recommendations. (Audit Report No. 50601-15-
    other regions, and encouraging the unloading of                       Te, Review of FY 2005 Congressional Earmarks)
    commodities that were left on barges in the New
    Orleans area. FSA implemented the initiatives and                     Saving the Chesapeake Bay Watershed
    provided monetary assistance through CCC.                             Requires Better Coordination of
                                                                          Environmental and Agricultural Resources
       Due to the urgency of the situation, USDA initially
    used ad hoc procedures to negotiate noncompetitive                    This joint U.S. Environmental Protection Agency (EPA)
    agreements, and awarded three noncompetitive grants                   OIG and USDA OIG review found that EPA must improve
    for alternative grain storage and barge movement                      its coordination and collaboration with its bay partners and
    projects to two companies. However, those verbal                      the agricultural community to better reduce nutrients and
    agreements lacked transparency and competition                        sediment entering the Chesapeake Bay watershed. USDA, a
    to minimize costs and ensure relief to all affected                   bay partner at the Federal level, could significantly assist EPA
    companies. The noncompetitive agreements had                          in implementing the needed conservation practices within the
    notably higher rates than those for similar services later            agricultural community, given its many conservation programs,
    solicited through competitive bidding – the differences               extensive field organization, and long experience working
    totaled $5.6 million. Of the $38.75 million USDA                      with the agricultural community. However, USDA has not
    authorized to fund the initiatives, $22.7 million was                 coordinated such a Departmentwide strategy or policy.




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half            11
                                                                Goal 3




   Responding expeditiously to our recommendations,                      Without Major Changes, Large-Fire
USDA assigned a senior-level official – the Under Secretary              Suppression Costs Will Continue To Escalate
for Natural Resources and Environment – to coordinate
with EPA’s Chesapeake Bay Program. He will direct and                    Our review concluded that FS’s escalating costs to fight
coordinate goals and programs across USDA mission                        wildfires are largely due to its efforts to protect private
areas and agencies. The Department also agreed to direct                 property in the wildland urban interface (WUI) where
agencies to expedite the development and implementation                  private homes border FS lands. From FY 2000 to FY 2006,
of outcome-based performance measurements to evaluate                    FS suppression costs averaged $900 million annually and
the effectiveness of their conservation efforts and programs.            exceeded $1 billion in 4 of those years. In some years, FS
Further, the Secretary’s announcement of USDA’s 2007                     borrowed funds from other programs to pay for its wildfire
Farm Bill proposals included the creation of a new Regional              suppression activities, adversely affecting FS’ ability to
Water Enhancement Program, focusing on cooperative                       accomplish work in other areas. Public expectations
approaches to enhancing water quantity and/or quality                    and uncertainties among Federal, State, and local fire
on a regional scale, which we anticipate will explore the                management agencies about roles and responsibilities
feasibility of targeting USDA funds geographically. (Audit               compel FS to suppress fires aggressively and at great expense
Report No. 50601-10-HQ, Saving the Chesapeake Bay                        when private property is at risk, even when there is little
Watershed Requires Better Coordination of Environmental                  threat to National Forest System lands. Approximately 85
and Agricultural Resources)                                              percent of WUI acreage is on non-Federal lands, but FS
                                                                         bears the majority of WUI protection costs, thus incurring




                                           FPO




A home in the WUI being threatened by wildfire. FS photo.




  12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                                  Goal 3




50 to 100 percent of its large wildfire expenditures. Efforts              suited for the agency and will obtain the best prices for the
to reduce these costs need to include more equitable                       property. FS agreed with our conclusions and agreed to take
burden-sharing with State and local governments who have                   prompt corrective action. (Audit Report No. 08001-1-At,
the authority to regulate growth in WUI.                                   Implementation of the Capital Improvement Program)

   In addition, FS needs to modify its policies that unduly                FS’ Controls Over Fleet Credit Cards Need
restrict the use of fire to reduce hazardous fuels (brush,                 Improvement
dead trees) on FS land. The agency may also lack enough
specialized personnel needed to take advantage of such                     FS maintains USDA’s largest vehicle fleet and assigns a fleet
opportunities. Further, FS lacked effective cost-containment               credit card to each vehicle. This card is used to fuel and (in
controls: Managers’ and incident commanders’ decisions                     emergencies) maintain the vehicles. FS personnel charged
and oversight were neither tracked nor evaluated, agency                   $48 million to these cards in FYs 2004 and 2005. We found
performance measures and reporting mechanisms did not                      that FS lacked adequate control over use of these cards and,
adequately allow FS management to assess the effectiveness                 therefore, was unaware of approximately $3.7 million in
of its wildfire suppression cost-containment efforts, and cost-            unsupported charges.
containment reviews had limited effectiveness. FS concurred
and is implementing corrective actions. (Audit Report No.                     The agency relied on an automated control system, the
08601-44-SF, FS Large-Fire Suppression Costs)                              Purchase Card Management System (PCMS). However,
                                                                           users of fleet credit cards were not required to keep receipts
FS Needs To Improve How It Conveys Excess                                  for non-fuel expenditures nor did they record odometer
Property                                                                   readings when they purchased fuel, actions necessary to
                                                                           verify the appropriateness of the purchases. In addition,
To help FS reduce its deferred maintenance backlog,                        FS employees were not using many of the controls PCMS
Congress authorized the agency to sell surplus properties.                 offered, such as establishing reasonable profiles on each credit
We found that (1) FS’ process for identifying excess                       card to alert them of unusual transactions. Consequently,
properties and nominating them for sale was slow and                       users charged $2.5 million in non-fuel transactions, of which
could not ensure that all such properties were identified                  $1.3 million was categorized as “miscellaneous,” “null,” and
and nominated for the conveyance program and (2) FS was                    “unassigned.” In addition, users purchasing prohibited
taking about 2 years to complete the conveyance process                    premium and mid-grade fuels spent an estimated $201,581
once sites were approved. Because properties with structures               above the cost of regular unleaded fuel. Approximately
are not being maintained during this time, they continue                   $2.1 million of the $3.7 million in unsupported charges
to deteriorate and lose value. We concluded that FS could                  was charged to 1,871 fleet credit cards not assigned to a
improve its procedures for timely identifying, nominating,                 vehicle, violating USDA regulations and making it more
and completing conveyance sales. Further, we found that                    difficult to assess the validity of expenditures.
FS needed to evaluate its marketing practices because it
limited how it offered properties, both in terms of where                     FS agreed to (1) conduct management reviews of the fleet
it advertised and how long it left properties on the market.               credit card operations, (2) strengthen controls over fleet
As a result, the agency may have sold 8 of 38 properties                   credit cards and how PCMS is used to monitor those cards,
for a total of $648,497 beneath the estimated market                       and (3) require that receipts for non-fuel transactions be
value of $5.2 million. In addition, FS did not determine                   submitted for verification. (Audit Report No. 08601-3-Te,
the most cost-effective marketing methods that are best                    Controls Over FS Vehicle Fuel and Maintenance Costs)




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half            13
                                                                                                    Goal 3




FAS Needs To Engineer a Global Market                                                                        other strategic information; clarify its definitions for bulk,
Strategy To Improve U.S. Competitiveness in                                                                  high-value, and processed products; and adopt uniform
World Agricultural Export Markets                                                                            outcome-based performance measures and implement its
                                                                                                             food aid information system. (Audit Report No. 50601-
Our review determined that FAS had timely implemented                                                        12-At, Implementation of Trade Title of 2002 Farm Bill
10 of the 13 provisions impacting international trade of                                                     and PMA)
agricultural commodities contained in the 2002 Farm
Bill and improved the operation of its food aid programs                                                     FAS Trade Promotion Operations
in accordance with the recommendations of the 2002
President’s Management Agenda (PMA). However, the                                                            In August 2006, three Members of Congress asked OIG to
agency has not developed a business process to complete a                                                    perform an expedited review of the FAS programs designed
Global Market Strategy to increase the Nation’s agricultural                                                 to foster expanded agricultural trade, determine how trade
exports. From 1990 to 2005, the dollar value of U.S.                                                         information is collected and disseminated to interested
exports rose by 39 percent, but larger export gains by                                                       U.S. organizations, ascertain how FAS interacts with the
foreign competitors eroded the United States’ market share                                                   U.S. Trade Representative, discuss linkages between USDA
of global exports by 32 percent.                                                                             accomplishments for promoting exports with the National
                                                                                                             Export Strategy, and discuss the effectiveness of the Market
    In addition, FAS lacks a standardized definition to                                                      Access Program (MAP).
distinguish unprocessed bulk farm commodities from high-
value and processed products, to ensure that the agency                                                         We found that FAS does not formally track its efforts
targets 35 percent of its export credit guarantee program                                                    to expand trade activities in exporting U.S. agricultural
funds to support exports of high-value and processed                                                         products, nor does it have a mechanism for summarizing
products. Finally, FAS needs to complete outcome-oriented                                                    trade barrier information. The 2006 National Export
performance measures and its planned food aid information                                                    Strategy submitted to Congress by the Secretary of
system to provide meaningful evaluation reports on the                                                       Commerce did not present USDA’s annual accomplishments
agency’s efforts to achieve the legislated performance goals of                                              for promoting the export of U.S. agricultural products,
its food aid programs. We recommended that FAS develop                                                       nor did it relate information to USDA’s Performance and
business processes to integrate agency reviews, analyses, and                                                Accountability Report. Looking at the use of MAP funds in

                                                            U.S. Exports and Share of Global Agricultural Markets
                                                                    (Millions of Dollars and Percentages)
                               90000                                                                                                                      25.00%
                               80000
                                                                                                                                                          20.00%
                                                                                                                                                                       Percent of Globbal Market Share

                               70000
Dollar Value of U.S. Exports




                               60000
                                                                                                                                                          15.00%
                               50000
                               4,0000
                                                                                                                                                          10.00%
                               30000
                               20000                                                                                                                       5.00%
                               10000
                                                                                                                                                           0.00%
                                                       1990                      1995                         2000                2005
                                                                         Trade Value                      Percent of Market Share
                               Source: World Trade Organization International Trade Statistics and OIG Analysis


                  14            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                                  Goal 3




the Philippines, we found that as of September 2006, three                 South Dakota Producer Pleads Guilty to
participants in that country received more than $780,000                   Threatening FSA Employee
in MAP funds during FY 2005 and requested more than
$609,000 for FY 2006. However, program evaluations, as                     In September 2006, a Rapid City producer pled guilty in
prescribed by the MAP regulations, were not done.                          U.S. District Court, District of South Dakota, to verbally
                                                                           threatening an FSA employee and making false statements to
   FAS generally agreed with our five recommendations, but                 FSA. In January 2007, the producer was sentenced to serve
provided specific information on how it would implement                    24 months of probation and fined $500. The producer had
only two of them. We will continue to work with the                        made false statements on applications to obtain loans totaling
agency on the remaining recommendations. (Audit Report                     $200,000. When confronted with the false information, the
No. 07601-1-Hy, FAS Trade Promotion Operations)                            producer threatened to assault the FSA loan manager.

FSA Has Adequate Controls To Minimize and                                  Michigan Farming Operation Found Liable
Recover Overpayment for Advanced Counter-                                  Regarding Crop Insurance Fraud
Cyclical Payments
                                                                           In November 2006, a Federal judge in the Eastern District
FSA’s Direct and Counter-Cyclical Payment Program                          of Michigan found a Bay City family farming operation
protects agricultural producers from low market prices by                  civilly liable on three counts of filing false multi-peril crop
issuing counter-cyclical payments – often in advance – up                  insurance claims. The judge ordered the farming operation
to the commodity’s target price (statutory benchmark) in a                 to repay treble damages, totaling more than $2.1 million,
given crop year (CY). If a commodity’s effective price (the                for False Claims Act violations. The judge also fined the
higher of the national average market price or crop loan                   farming operation $15,000. The farming operation had
rate, plus the direct (fixed) payment rate) for a given year is            concealed production from RMA to increase fraudulent
less than its target price, producers are paid the difference,             crop insurance claims.
known as a counter-cyclical payment. Producers must
return the amount, if any, by which the advance payment
                                                                           Former RD Employee Sentenced for Assault
exceeds the actual counter-cyclical payment.
                                                                           on Former Supervisor
   For CYs 2003 and 2004, FSA made counter-cyclical
                                                                           In November 2006, a former RD employee was sentenced
payments totaling about $1 billion and $4.4 billion,
                                                                           in Grand Traverse County, Michigan, Circuit Court to serve
respectively, including overpaying in advance $477.4
                                                                           9 months of probation and 14 days of community service,
and $174.2 million, respectively. Of the $652 million
                                                                           fined $495, and ordered to attend numerous counseling
in advance overpayments made for CYs 2003 and 2004,
                                                                           programs for drunk and disorderly conduct after assaulting
$651 million (99.9 percent) was recovered as of July 10,
                                                                           a former supervisor. In September 2006, the former RD
2006. The overpayments was primarily recovered through
                                                                           employee assaulted the former supervisor when she attended
offset of future Direct and Counter-Cyclical Payment
                                                                           an agency-sponsored conference in Traverse City, Michigan.
Program payments, which is the established procedure. We
                                                                           The former employee claimed to have been too intoxicated
found that FSA has adequate controls in place to minimize
                                                                           on the night in question to recall the assault.
and recover advanced counter-cyclical overpayments and,
accordingly, made no recommendations. (Audit Report No.
03008-1-At, Advanced Counter-Cyclical Overpayments
and Recovery)




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half           15
                                                                    Goal 3




Improvements Needed in RD’s Dedicated                                        Office of Procurement and Property
Loan Origination and Servicing System                                        Management (OPPM) Review of Acquisition
(DLOS) Security and Application Controls                                     Planning and Processing

DLOS is used to originate and service SFH loans totaling                     USDA’s Integrated Acquisition System (IAS) is intended
more than $13 billion. Our audit found that RD had not                       to provide a single enterprise-wide acquisition system. We
established an effective security program, had not conducted                 found that IAS had the potential to aid in meeting control
a thorough certification and accreditation (C&A), and                        objectives; however, it does not provide control over all
had not appropriately established interconnection security                   areas and by itself cannot ensure that all control objectives
agreements. Further, RD did not adequately monitor                           of the acquisition process are met. In addition, we found
contractor compliance with OMB and NIST guidance when                        that OPPM had not implemented procedures to confirm
the contractors prepared the documentation supporting the                    that component agencies comply with requirements not
certification of the system. As a result, critical loan portfolio            controlled by IAS, specifically, issuing solicitations and
information was unnecessarily jeopardized.                                   monitoring contractor performance. In addition, the
                                                                             Automated Workforce Tracking System (AWTS) did
   We recommended that RD ensure that the DLOS security                      not have sufficient storage capacity to handle records for
plan accurately reference ITS and National Information                       all acquisition workforce personnel. In response to our
Technology Center (NITC) documents, and that adequate                        recommendations, OPPM agreed that additional controls
documentation be maintained to verify that all controls                      through process reviews and increased IAS functionality
in the security plan were implemented; perform a C&A                         would strengthen oversight of component agency activities.
that fulfills the requirements of full system accreditation;                 OPPM plans to issue additional policy to component
and ensure that the C&A includes adequate Security                           agencies to increase the number of contract review boards
Testing and Evaluation testing and appropriate supporting                    specifically addressing solicitation review and proposal
documentation. We also recommended that RD establish                         evaluation, strengthen component agency acquisition
agreements with all entities with systems connecting with                    strategy planning, stress the importance of monitoring
DLOS, NITC, and ITS general support systems that                             contractor performance, require agencies to periodically
include rules of behavior and controls; establish controls to                report to OPPM the results of their reviews, and expand
ensure staff and contractors do not exceed assigned levels                   the capabilities of AWTS or a replacement system. (Audit
of authority; ensure all testing of dataset rules is completed               Report No. 89017-1-Hy, OPPM Review of Acquisition
within the test libraries; and establish controls to ensure                  Planning and Processing)
system software changes are properly authorized, tested,
and documented before migration to the production                            NRCS Oversight of Contract Administration
environment. RD generally agreed, with the exception of                      Needs Improvement
the recommendation to revise its disaster recovery plan,
stating that mainframe recovery is more crucial to restoring                 We determined that NRCS’ administration of its
operations and the mainframe component can be used                           procurement activity was conducted in accordance with
in lieu of the Web-based component to collect loan data.                     Federal, Departmental, and agency regulations. However,
(Audit Report No. 85501-1-FM, Security and Application                       NRCS’ system of internal controls over its procurement
Controls – RD’s DLOS)                                                        activities needed to be strengthened. Specifically, NRCS
                                                                             did not complete a sufficient number of planned oversight
                                                                             reviews to ensure that procurement activities totaling
                                                                             more than $170 million were consistently performed in
                                                                             an appropriate manner, and lacked other compensating
                                                                             controls. Firm-fixed-price contracts were increased without




  16     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                               Goal 3




justification, and sealed bids were opened and reviewed by              USDA FY 2006/2005 Consolidated Financial
only one individual. NRCS also had not fully implemented                Statements – Unqualified Opinion
IAS. We recommended that NRCS develop and implement
control techniques to ensure that a sufficient number of                The USDA consolidated financial statements for
procurement oversight reviews are performed to detect                   FY 2006/2005 received an unqualified audit opinion. In
and resolve identified deficiencies, implement a strategy to            our report on internal controls over financial reporting,
resolve resource-related impacts on its management controls             we identified three reportable conditions, of which two
over contracting, and implement policies and procedures                 rose to the level of material weakness: improvements
on how the agency will use and monitor IAS. The agency                  needed in overall financial management across USDA, and
concurred with our recommendations and has begun to                     improvements needed in IT security and controls. The third
implement corrective actions. (Audit Report No. 10001-                  reportable item was related to improvements needed in
01-Hy, Review of Contract Administration at NRCS)                       certain financial management practices and processes. We
                                                                        also reported three instances of noncompliance relating to the
USDA Implementation of the Improper                                     Federal Financial Management Improvement Act of 1996
Payments Information Act of 2002 (IPIA)                                 (FFMIA), IPIA, and managerial cost accounting practices.
Needs Improvement                                                       In addition, the Department reported two potential Anti-
                                                                        Deficiency Act (ADA) violations in its FY 2006 Statement
The Office of the Chief Financial Officer (OCFO), the lead              of Assurance relating to FS and CCC. The Department is
agency for coordinating and reporting the Department’s                  working with the agencies and OGC to determine whether
efforts to implement IPIA, has designated compliance with               the potential ADA violations actually occurred. OCFO
IPIA as a top priority for FY 2007. In our ongoing effort               generally agreed with the recommendations and plans to
to evaluate USDA’s compliance with IPIA requirements,                   develop corrective actions.
OIG audited the FS and RHS processes for determining
improper payments that were reported in the FY 2006                       The stand-alone agencies of CCC, FS, RD, FNS, the
Performance and Accountability Report. Our audits found                 Federal Crop Insurance Corporation (FCIC), and the Rural
that 1) valid statistical samples had not been performed,               Telephone Bank (RTB) also received unqualified opinions.
2) improper payments reported in FY 2005 were not
properly calculated, 3) RHS oversight of corrective actions                The audit of CCC identified three material weaknesses
was not sufficient to ensure they were effective, and 4) FS             related to improvements needed in information security
did not have a process in place for recovering improper                 controls, financial systems functionality and funds control,
payments and RHS overstated the amount recovered. We                    and financial accounting and reporting policies and
recommended that the agencies develop and implement                     procedures. Two reportable conditions were identified
controls to ensure that the identification and reporting                related to improvements needed in producer monitoring
of improper payments, including statistical sampling                    procedures and management’s review procedures related to
processes, comply with all OMB and OCFO requirements.                   the development, implementation, and maintenance of credit
The agencies concurred with our recommendations and                     reform cashflow models. Two instances of noncompliance
are using the results of our work to improve the FY 2007                were identified related to the Federal Information Security
process. (Audit Reports Nos. 04601-14-Ch and 08601-                     Management Act (FISMA) and FFMIA.
47-SF; respectively, RHS’ and FS’ Progress To Implement
IPIA)




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half          17
                                                                  GoalHeading
                                                             Section    3




   The audit of FS identified two material weaknesses related              identified no material weaknesses, reportable conditions, or
to improvements needed in FS’ financial management and                     noncompliance with laws and regulations. (Audit Reports
reporting process and general controls environment. Eleven                 Nos. 50401-59-FM, 06401-21-FM, 27401-31-Hy, 08401-
reportable conditions were identified related to various                   07-FM, 05401-15-FM, 85401-13-FM, and 15401-07-FM;
financial and management issues, and two instances of                      respectively, USDA’s, CCC’s, FNS’, FS’, FCIC’s, RD’s, and
noncompliance were identified related to appropriations                    RTB’s Financial Statements for FY 2006/2005)
law and FFMIA.
                                                                           USDA Receives Clean Opinion on FY 2006
   The audit of RD identified one material weakness related                Special Purpose Financial Statements
to IT; three reportable conditions related to the credit reform
quality control process, the Rural Telecommunications                      USDA received an unqualified opinion on its FY 2006
Program unliquidated obligations certification process,                    special purpose financial statements. We found no material
and RD’s liquidating methodology and subsidy allowance                     weaknesses in internal controls over the financial reporting
calculations; and one instance of noncompliance with                       process and our tests of compliance with Treasury Financial
FFMIA.                                                                     Manual Chapter 4700 requirements disclosed no instances
                                                                           of noncompliance that are required to be reported under
   The audit of FNS identified the agency was not in                       U.S. Government Auditing Standards and OMB Bulletin
full compliance with IPIA. The audits of FCIC and RTB                      No. 06-03, as amended. (Audit Report No. 50401-61-FM,
                                                                           Audit of USDA’s Closing Package for FY 2006)




  18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                                  Goal
                                                                   Section
                                                                       3 Heading




GOVERNMENTWIDE ACTIVITIES – GOAL 3


Review of Legislation, Regulations, Directives,                          Participation on Committees, Working Groups,
and Memoranda                                                            and Task Forces

n	As part of its continuing efforts to strengthen conflict-             n	 In January, the USDA IG was elected to serve as the
     of-interest policies and procedures for the approved                     Chair of the PCIE’s Legislation Committee. The
     insurance providers (AIP) and their agents and loss                      Legislation Committee ensures that the PCIE is kept
     adjustors involved in the Federal crop insurance                         abreast of matters in the congressional arena of interest
     program, RMA requested OIG auditors’ comments                            to the Inspector General community. The committee
     and feedback on its draft policies and procedures.                       also develops, coordinates, and represents the official
     These continuing efforts, which began with the 2005                      PCIE positions on legislative issues. Committee
     Standard Reinsurance Agreements with the AIPs, were                      activities during this reporting period included
     partly prompted by OIG auditors’ recommendations                         reviewing pending legislation that would amend the IG
     in previous audit reports. Specifically, RMA had sought                  Act and preparing comments on Federal Acquisition
     our comments and feedback on a draft disclosure of                       Regulation changes related to OIG hotlines.
     the conflict-of-interest form to be used by the AIPs
     and their agents and loss adjustors. We commented                   n	 The IG completed her third year as a member of
     both on the draft form and the accompanying draft                        the Comptroller General’s Advisory Council on
     question-and-answer document.                                            Government Auditing Standards. Sponsored by the
                                                                              Government Accountability Office, the Advisory
n	OIG commented on the proposed rule to amend                                Council offers advice to the Comptroller General of
     regulations that govern the selection and functions                      the United States. The Council updated and issued
     of FSA State and county committees, published at 71                      the Government Auditing Standards (Yellow Book) in
     Fed. Reg. 68,755 (Nov. 28, 2006). OIG noted that                         January 2007.
     the proposed regulation may not comply with FSA’s
     Uniform Guidelines for Conducting FSA County                        n	 The IG serves on the PCIE Audit Committee, which
     Committee Elections (see 70 Fed. Reg. 2837 (Jan. 18,                     provides leadership and guidance to the Federal audit
     2005)) in terms of (1) balloting methods and (2) filing                  community by sponsoring audits of Governmentwide
     election reports. In addition, the proposed regulation                   issues and developing and maintaining professional
     may not sufficiently clarify the selection and function of               standards for OIG audit activities. Committee
     area committees, as distinct from county committees.                     activities during this period included providing
     The proposed regulation also states that even if an                      oversight for the Inspector General Auditor Training
     eligible voter has an interest in land located in more                   Institute, supporting the Government Accountability
     than one local administrative area in a single county,                   Office in updating the Government Auditing Standards,
     the voter is still entitled to only one vote in one local                approving the FISMA framework, and leading a review
     administrative area in the county (see 71 Fed. Reg.                      on the quality of audits performed under the Single
     68,758). However, the regulation is not clear on how                     Audit Act.
     to determine exactly where the individual is eligible to
     vote. OIG recommended that the proposed rule clarify
     all the above issues.




                                                                      USDA
                                                                       USDAOIG
                                                                            OIGSEMIANNUAL
                                                                                SEMIANNUALREPORT
                                                                                           REPORTTO
                                                                                                  TOCONGRESS
                                                                                                     CONGRESSFY
                                                                                                              FY2007
                                                                                                                 20071st
                                                                                                                      1stHalf
                                                                                                                          Half       19
                                                                                                                                      19
                                                          Section Heading
                                                                    Goal 3




    GOVERNMENTWIDE ACTIVITIES – GOAL 3

n	 The PCIE IT Round Table established the Digital                          private property – as opposed to National Forest
    Forensic Working Group, consisting of 19 PCIE and                        System land – in the wildland urban interface (WUI).
    Executive Council on Integrity and Efficiency (ECIE)                     OIG recommended that FS managers evaluate their
    agencies, including the U.S. Department of Justice’s                     agreements with State and local governments to ensure
    Computer Crime and Intellectual Property Section.                        that the costs of protecting the WUI are appropriately
    In October 2006, the working group was convened                          apportioned, since agency fire-suppression costs
    to establish Computer Forensic Standards for the                         could be significantly reduced – and firefighter
    OIG community, similar to the Government Auditing                        safety improved – if the Federal Government could
    Standards and the Investigative Standards for GS-1811s.                  proactively work with State and local governments
    The group determined that the best way to establish                      regarding prudent “Firewise” zoning and building
    these standards was to incorporate them in the Quality                   codes. OIG recommended that FS reduce the buildup
    Assurance Review (QAR) process, and developed                            of hazardous fuels, increase the number of qualified
    questions for the QAR consistent with the Quality                        personnel, and expand Wildland Fire Use to help
    Standards for Investigations (QSI), which are specific                   control future fire costs.
    to computer forensics. The Director of OIG’s National
    Computer Forensic Division (NCFD) continues to                     n	 Phyllis Fong Testifies Before the House Committee on
    participate in the development of questions for the                      Appropriations’ Subcommittee on Agriculture, Rural
    QAR. NCFD has also provided copies of its policies                       Development, and Related Agencies, Regarding OIG’s FY
    and procedures to members of the round table as                          2008 Budget Request. On March 1, 2007, the IG and
    examples for OIG forensic units that are developing                      OIG senior managers presented testimony in support of
    policies and procedures for their labs.                                  the President’s FY 2008 budget request for OIG. Their
                                                                             testimony provided an overview of OIG’s significant
Testimony Delivered                                                          audit and investigative work in the prior 12 months
                                                                             and noted important work now underway or planned
n	IG Testifies Before the Senate Committee on Energy and                    for 2007. The IG’s testimony emphasized OIG’s
    Natural Resources, Regarding Wildland Fire Issues. On                    work involving food safety, the security of USDA’s
    January 30, 2007, the IG presented testimony on                          IT systems, food stamp and WIC investigations,
    the major findings and recommendations from OIG                          the extensive OIG oversight response to Gulf Coast
    audits regarding FS’ Healthy Forests Initiative and                      hurricanes, and reviews of improper payment issues at
    large-fire suppression costs. The IG testified that FS’                  USDA agencies. The testimony also discussed OIG’s
    wildfire suppression costs exceeded $1 billion in 4 of                   work assessing the Department’s response to avian
    the past 7 years, and that the majority of FS’ large-                    influenza and several audits involving FAS and USDA
    fire suppression costs are directly linked to protecting                 farm programs.




  20
   20   USDA
         USDAOIG
              OIGSEMIANNUAL
                  SEMIANNUALREPORT
                             REPORTTO
                                    TOCONGRESS
                                       CONGRESSFY
                                                FY2007
                                                   20071st
                                                        1stHalf
                                                            Half
                                                               Goal
                                                                Section
                                                                    3 Heading




ONGOING AND PLANNED REVIEWS FOR GOAL 3

Topics that will be covered in ongoing or planned reviews under Goal 3 include:

Hurricane Relief Initiatives:                                        n	Rural Utilities Service (RUS) controls over Water
                                                                        and Waste Disposal Loan and Grant Program,
n	Emergency Watershed Protection Program and
                                                                     n	the Department and stand-alone agencies’ financial
   Dead Animal Debris Disposal Project (NRCS),
                                                                        statements for FYs 2006 and 2007 (OCFO),
n	Emergency Conservation Program (FSA),
                                                                     n	agreed-upon procedures: retirement, health, and life
n	Section 32 disaster programs including the Feed,
                                                                        insurance withholdings/contribution and supplemental
   Hurricane (crop), Livestock, and Tree Indemnity
                                                                        headcount report submitted to Office of Personnel
   Programs and aquaculture grants (FSA and CCC),
                                                                        Management (OPM) for FYs 2006 and 2007 (OCFO),
n	Emergency Forestry Conservation Reserve Program (FSA).
                                                                     n	continuing reviews of improper payments including
                                                                        the risk assessment process and monitoring the
Other Goal 3 Work:                                                      progress of corrective actions (FSA and RHS),
n	USDA employee civil rights complaints
                                                                     n	application control review of the Store Tracking
   (Office of Civil Rights (CR)),
                                                                        and Redemption Subsystem II (FNS),
n	controls over producers disqualified
                                                                     n	management and security over USDA
   from farm programs (FSA),
                                                                        wireless connections (OCIO),
n	financial management controls over
                                                                     n	FY 2007 National Finance Center (NFC) general controls,
   reinsured companies (RMA),
                                                                     n	FISMA – FY 2007 (OCIO),
n	RMA compliance activities,
                                                                     n	e-Gov security (OCIO),
n	contracting for services under the Agricultural
                                                                     n	contract administration at NRCS,
   Risk Protection Act of 2000 (RMA),
                                                                     n	monitoring of USDA implementation of
n	RMA’s 2005 emergency hurricane relief efforts in Florida,
                                                                        Cost Accounting System (OCFO),
n	FS Air Safety Program,
                                                                     n	ITS general controls – FY 2007 (OCIO),
n	FS controls over documenting and reporting
                                                                     n	minimum security requirements in USDA
   its hurricane relief expenditures to FEMA,
                                                                        information systems (OCIO),
n	FS Stewardship Contracting Program,
                                                                     n	NITC FY 2007 general controls (OCIO),
n	FS Invasive Species Program,
                                                                     n	management over Time & Attendance data
n	management of FS Forest Legacy Program,
                                                                        processing by TIME at NFC (OCFO),
n	replacement plan for firefighting aerial resources (FS),
                                                                     n	controls over e-payments at OCFO/NFC,
n	FS’ use of contracted labor,
                                                                     n	IT – stolen computer equipment containing
n	oversight and control of FS activities,
                                                                        sensitive information (OCIO),
n	effectiveness and enforcement of debarment
                                                                     n	followup on the Packers and
   and suspension regulations in USDA,
                                                                        Stockyards Programs (GIPSA),
n	implementation of renewable energy programs in USDA,
                                                                     n	effective use of satellite imagery by
n	security and application controls in RD’s DLOS (RHS),
                                                                        USDA agencies (FSA and NRCS),
n	RBS’ Intermediary Relending Program,
                                                                     n	Wetlands Reserve Program restoration
n	Business and Industry guaranteed lenders
                                                                        compliance (NRCS),
   with loans in default (RBS),
                                                                     n	contract administration at NRCS,
n	origination practices for the SFH Section
                                                                     n	grants to Tribal Land Grant Institutions (CSREES),
   502 Direct Loan Program (RHS),
                                                                     n	National Research Initiative
n	Rural Rental Housing (RRH) construction costs (RHS),
                                                                        Competitive Grants (CSREES),
n	guaranteed loan losses (RHS),
                                                                     n	international trade policy and procedures (FAS),
n	RHS force-placed hazard insurance,
                                                                     n	Trade Adjustment Assistance for Farmers (FAS), and
n	selected Section 538 project (RHS),
                                                                     n	ARS research agreement monitoring.
n	servicing of lenders’ guaranteed loans (RHS),
n	Oklahoma RRH Management Company (RHS),


The findings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits and
investigations are completed.


                                                                    USDA
                                                                    USDA OIG
                                                                         OIG SEMIANNUAL
                                                                             SEMIANNUAL REPORT
                                                                                        REPORT TO
                                                                                               TO CONGRESS
                                                                                                  CONGRESS FY
                                                                                                           FY 2007
                                                                                                              2007 1st
                                                                                                                   1st Half
                                                                                                                       Half       21
 Gauging the Impact of the OIG

 PROGRESS AGAINST THE OIG STRATEGIC PLAN                                    1978, as amended. The following pages present a statistical
                                                                            overview of the OIG’s accomplishments this period.
 The first way we gauged our impact was by measuring the
 extent to which our work focused on the key issues under                   For audits we show
 our three strategic goals:                                                 n	reports issued

                                                                            n	management decisions made (number
                                                                               of reports and recommendations)
 n	Support USDA in the enhancement of safety and
    security measures to protect USDA and agricultural                      n	total dollar impact of management-decided reports
    resources and in related public health concerns.                           (questioned costs and funds to be put to better use)

 n	Reduce program vulnerabilities and enhance                              n	program improvement recommendations
    integrity in the delivery of benefits to individuals                    n	audits without management decision
 n	Increase the efficiency and effectiveness with which
                                                                            For investigations we show
    USDA manages and employs public assets and resources,
    including physical and information resources.                           n	indictments

                                                                            n	convictions
 IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK                                 n	arrests
 ON DEPARTMENT PROGRAMS
                                                                            n	total dollar impact (recoveries, restitutions, fines)

 A second way we gauge our impact is by tracking the                        n	administrative sanctions
 outcomes of our audits and investigations. Many of these                   n	OIG Hotline complaints
 measures are codified in the Inspector General Act of




                      PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS


                                                                                            FY 2006 FY 2007
     Performance Measures                                                                   Baseline   Target      FY 2007 1st Half Actual


     Audit/Investigative resources dedicated to critical/high-impact work                     91.8%        90%                         92.0%




     Audit recommendations resulting in management decision within 1 year                     89.5%        85%                         87.6%



     Investigative cases where criminal, civil, or administrative action is taken in
                                                                                              77.4%        65%                         74.7%
     response to OIG reports




22     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                                                               Impact of the OIG




                                                                     SUMMARY OF AUDIT ACTIVITIES
                                                                                OCTOBER 2006 – MARCH 2007

         Reports Issued                                                                                                                                                                              38
         Audits Performed by OIG                                                                                                                                                                      29
         Evaluations Performed by OIG                                                                                                                                                                  0
         Audits Performed Under the Single Audit Act                                                                                                                                                   0
         Audits Performed by Others                                                                                                                                                                    9
         Management Decisions Made
         Number of Reports                                                                                                                                                                           25
         Number of Recommendations                                                                                                                                                                  233

         Total Dollar Impact (Millions) of Management-Decided Reports                                                                                                                             $11.4
         Questioned/Unsupported Costs                                                                                                                                $11.3   ab

         Recommended for Recovery                                                                                                                    $0.9
         Not Recommended for Recovery                                                                                                               $10.3
         Funds To Be Put to Better Use                                                                                                                                $0.1
a
   T hese were the amounts the auditees agreed to at the time of management decision.
b
     The recoveries realized could change as the auditees implement the agreed upon corrective action plan and seek recovery of amounts recorded as debts due the Department.




                                                          SUMMARY OF INVESTIGATIVE ACTIVITIES
                                                                                OCTOBER 2006 – MARCH 2007

         Reports Issued                                                                                                                                                                             155

         Cases Opened                                                                                                                                                                               209

         Cases Closed                                                                                                                                                                               167

         Cases Referred for Prosecution                                                                                                                                                             107

         Impact of Investigations
         Indictments                                                                                                                                                                                171

         Convictions                                                                                                                                                                                101a

         Searches                                                                                                                                                                                    69

         Arrests                                                                                                                                                                                    453

         Total Dollar Impact (Millions)                                                                                                                                                           $43.5
         Recoveries/Collections                                                                                                                    $7.9  b



         Restitutions                                                                                                                            $23.4c

         Fines                                                                                                                                     $2.4d

         Claims Established                                                                                                                        $8.8e

         Cost Avoidance                                                                                                                            $0.5f

         Administrative Penalties                                                                                                                  $0.5g

         Administrative Sanctions                                                                                                                                                                   58
         Employees                                                                                                                                                                                   17

         Businesses/Persons                                                                                                                                                                          41
a
       Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the 117 convictions do not necessarily relate to the 133 indictments.
b
   Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
   Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
   Fines are court-ordered penalties.
e
      Claims established are agency demands for repayment of USDA benefits.
f
     Consists of loans or benefits not granted as the result of an OIG investigation.
g
    Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.



                                                                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half                                                  23
                                                             Impact of the OIG




                                             INVENTORY OF AUDIT REPORTS
                                             WITH RECOMMENDATIONS THAT
                                             FUNDS BE PUT TO BETTER USE
                                        FROM OCTOBER 1, 2006, THROUGH MARCH 31, 2007


                                                                                       NUMBER   DOLLAR VALUE


                     FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY
     A.                                                                                  9       $323,696,063
                     OCTOBER 1, 2006




     B.              WHICH WERE ISSUED DURING THE REPORTING PERIOD                       3         $5,988,842




     TOTALS                                                                              12      $329,684,905




                     FOR WHICH A MANAGEMENT DECISION WAS MADE DURING THE
     C.                                                                                  1
                     REPORTING PERIOD




                     (1) DOLLAR VALUE OF DISALLOWED COSTS                                           $115,878




                     (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                            $0




                     FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY THE END
     D.                                                                                  11      $329,569,027
                     OF THE REPORTING PERIOD




                     REPORTS FOR WHICH NO MANAGEMENT DECISION WAS MADE WITHIN
                                                                                         7       $323,455,788
                     6 MONTHS OF ISSUANCE 




24        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                                            Impact of the OIG




                                                            INVENTORY OF AUDIT REPORTS WITH
                                                              QUESTIONED COSTS AND LOANS
                                                            FROM OCTOBER 1, 2006, THROUGH MARCH 31, 2007



                                                                                                                    DOLLAR VALUES


                                                                                                                  QUESTIONED        UNSUPPORTEDa
                                                                                                                  COSTS AND          COSTS AND
                                                                                                     NUMBER         LOANS              LOANS

A.
                         FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY                              21         $109,749,010        $49,055,663
                         OCTOBER 1, 2006


B.                       WHICH WERE ISSUED DURING THIS REPORTING PERIOD                                  5           $6,505,601         $2,370,789



TOTALS                                                                                                  26         $116,254,611        $51,426,452



C.
                         FOR WHICH A MANAGEMENT DECISION WAS MADE DURING                                 8
                         THIS REPORTING PERIOD


                         (1) DOLLAR VALUE OF DISALLOWED COSTS


                         RECOMMENDED FOR RECOVERY                                                                      $935,459           $285,211



                         NOT RECOMMENDED FOR RECOVERY                                                               $10,328,657            $87,592



                         (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                   $1,475,768



D.
                         FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE                                 18         $103,750,430        $50,357,412
                         BY THE END OF THIS REPORTING PERIOD


                         REPORTS FOR WHICH NO MANAGEMENT DECISION WAS                                   14          $97,337,682        $48,074,215
                         MADE WITHIN 6 MONTHS OF ISSUANCE

a
    Unsupported values are included in questioned values.




                                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half      25
                                                               Impact of the OIG




 PROGRAM IMPROVEMENT RECOMMENDATIONS                                         n	USDA agreed to assign a senior-level official to coordinate
                                                                                with EPA’s Chesapeake Bay Program, and to direct agencies
 A significant number of our audit recommendations carry no                     to expedite the development and implementation of
                                                                                outcome-based performance measurements to evaluate
 monetary value per se, but their impact can be immeasurable
                                                                                the effectiveness of their conservation efforts and
 in terms of safety, security, and public health. They can also
                                                                                programs.
 contribute considerably toward economy, efficiency, and
 effectiveness in USDA’s programs and operations. During                     n	FS agreed to modify its policies that unduly restrict the
 this reporting period, we issued 144 program improvement                       use of fire to reduce hazardous fuels (brush, dead trees)
 recommendations, and management agreed to implement a                          on FS land.
 total of 142 program improvement recommendations that                       n	FS agreed to determine the most cost-effective marketing
 were issued this period or earlier. Examples of the program                    methods for surplus properties that are best suited for the
 improvement recommendations issued this period (see the                        agency and will obtain the best prices for the property.
 main text of this report for a summary of the audits that                   n	FS agreed to (1) conduct management reviews of the
 prompted these program improvement recommendations)                            fleet credit card operations and (2) strengthen controls
 include the following:                                                         over fleet credit cards and how PCMS is used to monitor
                                                                                those cards.
 n	APHIS agreed to issue policy to clarify CBP’s responsibilities
                                                                             n	RD agreed to ensure that adequate documentation is
    for Transportation and Exportation permits that allow
                                                                                maintained to verify that all controls in the DLOS security
    prohibited and restricted agricultural commodities to be
                                                                                plan were implemented; perform a C&A that fulfills the
    trans-shipped across the country to foreign destinations,
                                                                                requirements of full system accreditation; and ensure that
    and for the handling of seized agricultural products at
                                                                                the C&A includes adequate Security Testing and Evaluation
    ports of entry. APHIS also agreed to develop a process
                                                                                testing and appropriate supporting documentation.
    to allow both agencies to assess the risk of agricultural
    products entering the country by rail.                                   n	FS and RHS agreed to develop and implement controls to
                                                                                ensure that the identification and reporting of improper
 n	RMA agreed to issue a notice to advise insurance providers
                                                                                payments, including statistical sampling processes,
    of the unacceptable documents that have been used and to
                                                                                comply with all OMB and OCFO requirements.
    clarify what documents are acceptable for substantiating
    AGR policies and claims.




26   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                                              Impact of the OIG




                                            SUMMARY OF AUDIT REPORTS RELEASED FROM
                                            OCTOBER 1, 2006, THROUGH MARCH 31, 2007
                     DURING THE 6-MONTH PERIOD FROM OCTOBER 1, 2006, THROUGH MARCH 31, 2007, THE OFFICE
                       OF INSPECTOR GENERAL ISSUED 38 AUDIT REPORTS, INCLUDING 9 PERFORMED BY OTHERS.
                                                           THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:


                                                                                                          QUESTIONED UNSUPPORTEDa FUNDS BE PUT
                                                                                                AUDITS     COSTS AND    COSTS AND    TO BETTER
AGENCY                                                                                       RELEASED          LOANS       LOANS          USE
AGRICULTURAL RESEARCH SERVICE                                                                        1

ANIMAL AND PLANT HEALTH INSPECTION SERVICE                                                           1

OFFICE OF THE CHIEF INFORMATION OFFICER                                                              1

COMMODITY CREDIT CORPORATION                                                                         1

FARM SERVICE AGENCY                                                                                  3                                        $5,600,000

FOOD AND NUTRITION SERVICE                                                                           1

FOREIGN AGRICULTURAL SERVICE                                                                         1

FOREST SERVICE                                                                                      10        $3,783,205        $87,592

MULTIAGENCY                                                                                          8

NATURAL RESOURCES CONSERVATION SERVICE                                                               1

OFFICE OF PROCUREMENT AND PROPERTY MANAGEMENT                                                        1

RISK MANAGEMENT AGENCY                                                                               3        $2,722,396      $2,283,197

RURAL BUSINESS-COOPERATIVE SERVICE (RBS)                                                             1

RURAL DEVELOPMENT                                                                                    2

RURAL HOUSING SERVICE                                                                                2                                         $388,842

RURAL TELEPHONE BANK                                                                                 1


TOTALS                                                                                             38     $6,505,601       $2,370,789      $5,988,842

TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                                                                           30
      MULTIAGENCY AUDIT                                                                              8
      SINGLE AGENCY EVALUATION                                                                       0
      MULTIAGENCY EVALUATION                                                                         0
      TOTAL RELEASED NATIONWIDE                                                                     38
      TOTAL COMPLETED UNDER CONTRACTb                                                                9
      TOTAL SINGLE AUDIT ISSUED                       c
                                                                                                     0
a
    Unsupported values are included in questioned values
b
    Indicates audits performed by others
c
    Indicates audits completed as Single Audit
                                                                                                                                              - -Continued




                                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half            27
                                                                            Impact of the OIG




                       AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                               FROM OCTOBER 1, 2006, THROUGH MARCH 31, 2007

                                                                                                QUESTIONED   UNSUPPORTED
                            RELEASE                                                             COSTS AND     COSTS AND    FUNDS BE PUT
      AUDIT NUMBER            DATE                       TITLE                                    LOANS         LOANS      TO BETTER USE


     Agricultural Research Service
                                            DCAA Audit of International
                                            Science and Technology
                                            Center’s and Science and
     020170006HQ          2006/10/30
                                            Technology Center in
                                            Ukraine’s Internal Controls
                                            Funded by ARS
     Total: Agricultural Research Service                                                1



     Animal and Plant Health Inspection Service
                                            Review of Customs and Border
     336010007CH          2007/02/21        Protection’s Agricultural
                                            Inspection Activities
     Total: Animal and Plant Health Inspection Service                                   1



     Office of the Chief Information Officer
                                            Information Technology
     885010007FM          2007/03/16        Service’s General Controls
                                            – Fiscal Year 2006
     Total: Office of the Chief Information Officer                                      1



     Commodity Credit Corporation
                                            Audit of CCC’s FY 2006
     064010021FM          2006/11/13
                                            Financial Statements
     Total: Commodity Credit Corporation                                                 1



     Farm Service Agency
                                            FSA’s Efforts to Identify and
     030080001AT          2006/12/12        Recover Overpayments in the
                                            Counter-Cyclical Program
                                            Hurricane Relief Initiatives:
                                            Barge Movement and
     036010021KC          2007/03/20                                                                                            $3,400,000
                                            Transportation Differential
                                            Agreements
                                            Hurricane Relief Initiatives:
     036010022KC          2007/03/20        Emergency and Alternative                                                           $2,200,000
                                            Grain Storage
     Total: Farm Service Agency                                                          3                                      $5,600,000




28      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                           Impact of the OIG




                  AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                         FROM OCTOBER 1, 2006, THROUGH MARCH 31, 2007

                                                                                       QUESTIONED      UNSUPPORTED
                         RELEASE                                                       COSTS AND        COSTS AND     FUNDS BE PUT
 AUDIT NUMBER              DATE                    TITLE                                 LOANS            LOANS       TO BETTER USE


Food and Nutrition Service
                                      FY 2006 FNS Financial
274010031HY             2006/11/08
                                      Statements
Total: Food and Nutrition Service                                              1



Foreign Agricultural Service
076010001HY             2007/02/22    Trade Promotion Operations
Total: Foreign Agricultural Service                                            1



Forest Service
080010001AT             2006/11/03    Capital Improvement Program
                                      DCAA Audit of Reserve
080170008HQ             2006/10/26    America Termination for
                                      Convenience
                                      DCAA Audit of Minden Air
080170009HQ             2007/01/19    Corporation’s Termination
                                      Proposal Funded by FS
                                      DCAA Audit of Warden
080170010HQ             2007/02/21    Associates, Inc. Cost                                  $19,422
                                      Verification
                                      DCAA Audit of National
                                      Fire Protection Association’s
080170011HQ             2007/02/26
                                      December 31, 2005, Indirect
                                      Rates
                                      Audit of FY 2006 Forest
084010007FM             2006/11/13
                                      Service Financial Statements
                                      Controls Over Forest Service
086010003TE             2007/03/30    Vehicle Fuel and Maintenance                        $3,670,930
                                      Costs
                                      FS Large Fire Suppression
086010044SF             2006/11/20
                                      Costs
086010046SF             2006/11/07    FS Hurricane Relief Efforts
                                      Improper Payments
                                      – Monitoring the Progress of
086010047SF             2007/02/01                                                           $92,853        $87,592
                                      Corrective Actions for High
                                      Risk Programs in FS
Total: Forest Service                                                          10         $3,783,205        $87,592




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half   29
                                                                     Impact of the OIG




                 AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                       FROM OCTOBER 1, 2006, THROUGH MARCH 31, 2007

                                                                                         QUESTIONED      UNSUPPORTED
                       RELEASE                                                           COSTS AND        COSTS AND      FUNDS BE PUT
 AUDIT NUMBER            DATE                    TITLE                                     LOANS            LOANS        TO BETTER USE


Multi-Agency
500990051KC           2007/03/28    Zero Acreage Reporting Abuse
                                    Fiscal Year 2006 USDA
504010059FM           2006/11/14
                                    Financial Statements
                                    Fiscal Year 2006 Audit of
504010061FM           2006/11/17
                                    USDA’s Closing Package
                                    Information Technology – Lost
505010008FM           2007/02/27    or Stolen Items Containing
                                    Sensitive Information
                                    Chesapeake Bay Program
506010010HQ           2006/11/20
                                    – Joint Review
                                    Implementation of Trade
                                    Title of 2002 Farm Bill and
506010012AT           2007/03/28
                                    President’s Management
                                    Agenda
                                    Review of FY 2005
506010015TE           2007/03/12
                                    Congressional Earmarks
                                    USDA Homeland Security
507010002KC           2007/03/12
                                    Initiatives
Total: Multi-Agency                                                         8



Natural Resources Conservation Service
                                    Review of Contract
100010001HY           2007/03/20    Administration at the Natural
                                    Resources Conservation Service
Total: Natural Resources Conservation Service                               1



Office of Procurement and Property Management
                                    Review of Acquisition
890170001HY           2007/02/09
                                    Planning and Processing
Total: Office of Procurement and Property Management                        1



Risk Management Agency
                                    Evaluation of RMA Indemnity
050990027AT           2007/03/28    Payments for 2004 Florida                                $415,710
                                    Hurricanes
                                    Audit of Fiscal Year 2006
054010015FM           2006/11/08
                                    FCIC Financial Statements
                                    Adjusted Gross Revenue
056010004SF           2007/01/23                                                            $2,306,686      $2,283,197
                                    Program
Total: Risk Management Agency                                               3              $2,722,396       $2,283,197




 30     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                        Impact of the OIG




                 AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                       FROM OCTOBER 1, 2006, THROUGH MARCH 31, 2007

                                                                                     QUESTIONED     UNSUPPORTED
                       RELEASE                                                       COSTS AND       COSTS AND      FUNDS BE PUT
 AUDIT NUMBER            DATE                   TITLE                                  LOANS           LOANS        TO BETTER USE


Rural Business-Cooperative Service
                                    Business and Industry Loan for
340040008HY          2007/01/31     Lehigh Coal and Navigation
                                    Company
Total: Rural Business-Cooperative Service                                   1



Rural Development
                                    Rural Development FY 2006
854010013FM          2006/11/09
                                    Financial Statements
                                    Rural Development’s
                                    Dedicated Loan
855010001FM          2007/02/12
                                    Origination and Servicing
                                    System
Total: Rural Development                                                    1



Rural Housing Service
                                    Improper Payments
                                    – Monitoring the Progress
046010014CH          2007/03/20     of Corrective Action for
                                    High Risk Programs in Rural
                                    Housing Service
                                    Controls Over Single Family
046010015CH          2007/03/30     Housing Provided for                                                                   $388,842
                                    Hurricane Relief Efforts
Total: Rural Development                                                    2                                              $388,842



Rural Telephone Bank
                                    Rural Telephone Bank FY
154010007FM          2006/11/09
                                    2006 Financial Statements
Total: Rural Telephone Bank                                                 1

Grand Total:                                                                38       $6,505,601      $2,370,789       $5,988,842




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half   31
                                                                    Section
                                                                          Impact
                                                                            Heading
                                                                                 of the OIG




                                           AUDITS WITHOUT MANAGEMENT DECISION
     The Inspector General Act has a number of reporting requirements, among them tracking audits without management decision. The following
     audits did not have management decisions made within the 6-month limit imposed by Congress. Narratives for new entries follow this table.
     An asterisk (*) indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed before the agency can act to
     complete management decisions.
                                                                                                              Total Value at Issuance   Amount With No Mgmt.
           Agency           Date Issued                             Title of Report                                  (in dollars)        Decision (in dollars)



     NEW SINCE LAST REPORTING PERIOD
                                             1. Management and Security Over the Universal
     OCIO                 08/07/06
                                                Telecommunications Network (88501-6-FM)


     FSIS                 09/19/06           2. FSIS State-Operated Inspection Programs (24005-1-At)                      1,598,783


                                             3. Single-Family Housing, Borrower Income Verification
     RHS                  08/14/06
                                                Procedures (04099-341-At)
                                             4. Controls Over Multi-Family Housing Funds Provided
                          09/28/06                                                                                          160,557
                                                for Hurricane Relief Efforts (04601-13-Ch)

     PREVIOUSLY REPORTED BUT NOT YET RESOLVED
     These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the recommendations where
     management decisions had not been reached have been reported in previous Semiannual Reports to Congress. Agencies have been informed of
     actions that must be taken to reach management decision, but for various reasons the actions have not been completed. The appropriate Under and
     Assistant Secretaries have been notified of those audits without management decisions.
                                             5. Safeguards To Prevent Entry of Prohibited Pests and
     APHIS                02/20/03
                                                Diseases Into the United States (33601-3-Ch)
                                             6. Wildlife Services – Aerial Acquisition Procedures
                          09/30/04                                                                                           25,208                    25,208
                                                (33099-1-KC)
                                             7. APHIS Animal Care Program Inspection and
                          09/30/05                                                                                          689,354                   291,000
                                                Enforcement Activities (33002-3-SF)
                                             8. Monitoring the Audit of CCC’s FY 2005 Financial
     CCC                  11/09/05
                                                Statements (06401-20-FM)
                                             9. Private Voluntary Organization (PVO) Grant Fund
     FAS                  03/15/06
                                                Accountability (07016-1-At)
                                                                                                                          2,175,876

                                             10. NSLP – Food Service Management Companies
     FNS                  09/06/01
                                                 (FSMC) Midwest Region (27601-24-Ch)
                                                                                                                          3,537,912                   236,749

                          11/21/01           11. CACFP – Wildwood, Inc. Phase II (27010-6-KC)                          36,895,611                36,895,611
                                             12. NSLP Cost-Reimbursable Company (27601-13-KC)
                          12/09/05                                                                                        6,126,830                 6,126,830
                                                 Contracts With FSMCs (27601-15-KC)
     FSA                  09/30/05           13. FSA Compliance Activities (03601-12-Ch)                                 3,741,157                 3,741,157
                                             14. Implementation of the Hazard Analysis and Critical
     FSIS                 06/21/00
                                                 Control Point (HACCP) System (24001-3-At)
                                             15. Oversight of Production Process and Recall at ConAgra
                          09/30/03
                                                 Plant (Establishment 969) (24601-2-KC)
                                             16. HACCP – Compliance by Very Small Plants
                          06/24/05
                                                 (24601-5-At)
                                             17. Implementation of Agricultural Risk Protection Act
     Multiagency          09/30/03
                                                 (50099-12-KC)
                                             18. Homeland Security Issues for USDA Grain and
                          02/23/04
                                                 Commodities Inventory (50099-13-KC)
                                             19. Controls Over APHIS Issuance of Genetically
                          12/08/05
                                                 Engineered Organisms Release Permits (50601-8-Te)




32      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                   ImpactSection
                                                         of the OIG
                                                                 Heading




                                                                                     Total Value at Issuance   Amount With No Mgmt.
  Agency    Date Issued                        Title of Report                              (in dollars)        Decision (in dollars)
                          20. Lender Servicing of B&I Guaranteed Loans, Florida
RBS        01/28/02
                              (34601-3-At)
                                                                                                 1,536,060                 1,536,060

                          21. Lender Servicing of B&I Guaranteed Loans in Georgia
           01/10/03                                                                              3,766,908                 3,706,908
                              (34601-4-At)
                          22. RD – Lender Servicing of B&I Guaranteed Loans in
           08/27/03                                                                              9,145,549                   224,951
                              Georgia (34601-5-At)
                          23. Request Audit of B&I Guaranteed Loan in Arkansas
           09/29/05                                                                              2,502,954
                              (34099-7-Te)
                          24. RRH Program Insurance Expenses, Phase II
RHS        09/28/01
                              (04601-4-KC)
                                                                                                   596,665                    79,442

                          25. RD, RRH Program, Tenant Income Verification
           06/26/03                                                                              7,781,635                 3,183,305
                              – Gainesville, FL (04004-3-At)
           09/30/04       26. RRH Project Costs, Cairo, IL (04099-143-Ch)*                        164,000                   164,000
                          27. Subsidy Payment Accuracy In Multi-Family Housing
           03/23/05
                              Programs (04099-339-At)
                          28. Monitoring of RMA’s Implementation of Manual 14
RMA        03/15/02           Reviews/Quality Control Review System
                              (05099-14-KC)
           11/09/05       29. RMA Prevented Planting Claims (05099-11-SF)                          96,489                    96,489

RUS        09/30/05       30. Broadband Grant and Loan Programs (09601-4-Te)                 340,376,319                30,377,069




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half                33
                                                                Section
                                                                      Impact
                                                                        Heading
                                                                             of the OIG




AUDITS WITHOUT MANAGEMENT DECISION –                                          borrower renewals. CSC incorrectly limited the QC universe
NARRATIVE FOR NEW ENTRIES                                                     to only renewals that had previously received a supervisory
                                                                              review. The overall payment subsidy error rate calculated
                                                                              from this limited sample may not necessarily correspond to
1. Management and Security Over the                                           the true rate of error for the entire SFH loan subsidy program.
Universal Telecommunications Network                                          Second, CSC does not obtain documents to independently
(88501-6-FM), Issued August 7, 2006                                           verify Federal income tax information borrowers submit as
                                                                              part of their subsidy renewals. Thus, CSC’s QC reviews do
We found that OCIO had not conducted required failover                        not provide management with a reliable means of estimating
testing, security control testing, and certification and                      payment subsidy errors and overall program effectiveness. We
accreditation of the Universal Telecommunications Network                     have agreed to assist CSC officials by providing them with an
(UTN) before implementation. OCIO agreed with all                             example of a valid sampling plan for them to use as guidance
five recommendations, and we have reached management                          in developing their own sampling plan. CSC has also agreed
decision on two of them. For the remaining three, OCIO                        to obtain and use the Federal income tax information when
needs to ensure that controls are in place to capture total                   performing their QC review. Of seven recommendations, six
costs of a system, conduct a full and comprehensive failover                  remain without management decision.
test, and have an independent third-party review of security
controls over UTN, according to detailed, time-phased                         4. Controls Over Multi-Family Housing Funds
plans with completion dates.                                                  Provided for Hurricane Relief Efforts (04601-
                                                                              13-Ch), Issued September 28, 2006
2. FSIS State-Operated Inspection Programs,
(24005-1-At), Issued September 19, 2006                                       RHS’ quick response in placing victims into RRH units won
                                                                              praise in the Administration’s report, The Federal Response to
FSIS was not providing timely oversight of State Meat and                     Hurricane Katrina: Lessons Learned. However, in focusing
Poultry Inspection (MPI) programs. From October 2003                          on quickly placing victims into RRH units, agency officials
through June 2005, FSIS had conducted only 8 initial                          overlooked some basic management controls needed to
onsite reviews of the 28 State MPI programs. FSIS had not                     ensure that the appropriate amount of housing assistance
performed timely onsite fiscal reviews and reviews of new                     was provided to victims, and that only victims received
programs, and did not timely implement its yearend grant                      assistance. We concluded that much of the $2.6 million
closeout procedures to ensure that State MPI programs                         in emergency rental assistance (as of March 31, 2006) that
promptly returned any excess Federal funds. Of the                            RHS provided to disaster victims was unnecessary. (This
12 recommendations, management decision has been                              amount may actually be higher because RHS’ data system
reached on 10, and we are awaiting a response from FSIS to                    did not include all hurricane relief information.)
address the remaining 2. The funds noted in the total value
at issuance were related to the Texas MPI program, which is                      In the absence of any formal written emergency
current as of FY 2005 as to monies owed to FSIS.                              procedures to address a disaster of this magnitude, RHS
                                                                              officials provided guidance following the hurricanes in the
3. Single-Family Housing, Borrower Income                                     form of five unnumbered letters, four of which were issued
Verification Procedures (04099-341-At),                                       in September 2005. While this guidance generally answered
Issued August 14, 2006                                                        immediately pressing questions for field staff, it did not
                                                                              address some major control issues. Thus, in light of the
Although RHS’ Centralized Servicing Center (CSC) regularly                    problems that occurred after the Gulf Coast disaster, and
conducts quality control (QC) reviews to ascertain the                        the likelihood that other disasters will occur in the future,
accuracy of single-family housing (SFH) loan payments                         agency officials should develop and implement controls
subsidies, we found two procedural errors compromising their                  before the next disaster to ensure that rental assistance is
validity. First, CSC’s QC review was not properly designed to                 properly spent. We are awaiting a response from the agency
produce statistically valid conclusions for the entire universe of            to address our recommendations.




   34     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                                              Impact of the OIG




INDICTMENTS AND CONVICTIONS                                                                 therefore, the 101 convictions do not necessarily relate to the
                                                                                            171 indictments. Fines, recoveries/collections, restitutions,
From October 1, 2006, through March 31, 2007, OIG                                           claims established, cost avoidance, and administrative
completed 155 investigations. We referred 107 cases to                                      penalties resulting from our investigations totaled about
Federal, State, and local prosecutors for their decision.                                   $43.5 million.

   During the reporting period, our investigations led to                                     The following is a breakdown, by agency, of indictments
171 indictments and 101 convictions. The period of time                                     and convictions for the reporting period.
to obtain court action on an indictment varies widely;



                                                         Indictments and Convictions
                                                             October 1, 2006 – March 31, 2007

    Agency                                                                                                         Indictments           Convictions*
    APHIS                                                                                                                   7                       8
    ARS                                                                                                                     1                       0
    FAS                                                                                                                     0                       1
    FNS                                                                                                                  123                      56
    FS                                                                                                                      2                       1
    FSA                                                                                                                    14                     21
    FSIS                                                                                                                    4                       4
    NRCS                                                                                                                    0                       1
    OCFO                                                                                                                    1                       0
    OIG**                                                                                                                   1                       1
    RBS                                                                                                                     1                       1
    RHS                                                                                                                     6                       4
    RMA                                                                                                                     7                       0
    RUS                                                                                                                     3                       2
    SEC                                                                                                                     1                       1
    Totals                                                                                                               171                    101

    *This category includes pretrial diversions.
    **An individual impersonated an OIG special agent and was found guilty.




                                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half         35
                                                          Impact of the OIG




 OFFICE OF INSPECTOR GENERAL HOTLINE                                    reporting period, the OIG Hotline received 684 complaints,
                                                                        which included allegations of participant fraud, employee
 The OIG Hotline serves as a national receiving point for               misconduct, and mismanagement, as well as opinions
 reports from both employees and the general public of                  about USDA programs. Figure 1 displays the volume and
 suspected incidents of fraud, waste, mismanagement, and                type of the complaints we received, and figure 2 displays the
 abuse in USDA programs and operations. During this                     disposition of those complaints.




     Figure 1.                        Volume and Type of Complaints Received
     Reprisal (1)                                                                      Bribery (1)

     Waste/Mismanagement (83)




     Employee Misconduct (117)
                                                                                                     Participant Fraud (376)




     Opinion/Information (97)
     Health/Safety (9)




     Figure 2.                        Disposition of Complaints Received

                                                                                     Referred to FNS for Tracking (227)
     Referred to USDA or Other Agencies for
     Information – No Response Needed (102)


     Referred to OIG Audit or Investigations
     for Review (32)
     Filed Without Referral –
     Insufficient Information (53)

     Referred to State Agency (4)                                                            Referred to USDA Agencies
                                                                                                    for Response (266)




36     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                                  Impact of the OIG




               FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA)
                                   REQUESTS FOR THE PERIOD OCTOBER 1, 2006,
                                              TO MARCH 31, 2007


Number of FOIA/PA Requests Received                                                                                69
Number of FOIA/PA Requests Processed                                                                               73
 Number Granted                                                                                                     17
 Number Partially Granted                                                                                           32
 Number Not Granted                                                                                                 25
Reasons for Denial
 No Records Available                                                                                                   6
 Referred to Other Agencies                                                                                             1
 Requests Denied in Full (Exemption 5)                                                                                  1
 Requests Denied in Full (Exemption 7A)                                                                                 6
 Requests Denied in Full (Exemption 7C)                                                                                 2
 Request Withdrawn                                                                                                      2
 Fee-Related                                                                                                            0
 Not a Proper FOIA Request                                                                                              3
 Not an Agency Record                                                                                                   1
 Duplicate Request                                                                                                      2
 Other                                                                                                                  1
Requests for OIG Reports From Congress and Other Government Agencies
  Received                                                                                                         15
  Processed                                                                                                        15
Appeals Received                                                                                                        5
Appeals Processed                                                                                                       7
 Appeals Completely Upheld                                                                                              4
 Appeals Partially Reversed                                                                                             3
 Appeals Completely Reversed                                                                                            0
 Appeals Requests Withdrawn                                                                                             0
 Other                                                                                                                  1
Number of OIG Reports/Documents Released in Response to Requests                                                   32

NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 31 audit reports were posted to the Internet at the OIG Web site:
        http://www.usda.gov/oig




                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half       37
                                                         Abbreviations




                                       Abbreviations of Organizations
      AMS                   Agricultural Marketing Service
      APHIS                 Animal and Plant Health Inspection Service
      ARS                   Agricultural Research Service
      CBP                   U.S. Customs and Border Protection
      CCC                   Commodity Credit Corporation
      CI                    Criminal Investigation
      CR                    Office of Civil Rights
      CSC                   Centralized Service Center
      CSREES                Cooperative State Research, Education, and Extension Service
      DHS                   U.S. Department of Homeland Security
      ECIE                  Executive Council on Integrity and Efficiency
      EPA                   U.S. Environmental Protection Agency
      ERT                   Emergency Response Team
      FAS                   Foreign Agricultural Service
      FBI                   Federal Bureau of Investigation
      FCIC                  Federal Crop Insurance Corporation
      FDA                   Food and Drug Administration
      FEMA                  Federal Emergency Management Agency
      FNS                   Food and Nutrition Service
      FS                    Forest Service
      FSA                   Farm Service Agency
      FSIS                  Food Safety and Inspection Service
      GIPSA                 Grain Inspection, Packers and Stockyards Administration
      HUD                   U.S. Department of Housing and Urban Development
      IRS                   Internal Revenue Service
      ITS                   Information Technology Services
      NJTTF                 National Joint Terrorism Task Force
      NFC                   National Finance Center
      NIST                  National Institute of Standards and Technology
      NITC                  National Information Technology Center



38   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half
                                  Abbreviations




                  Abbreviations of Organizations
NRCS    Natural Resources Conservation Service
OOCIC   Ohio Organized Crime Investigations Commission
OCFO    Office of the Chief Financial Officer
OCIO    Office of the Chief Information Officer
OGC     Office of the General Counsel
OIG     Office of Inspector General
OMB     Office of Management and Budget
OPM     Office of Personnel Management
OPPM    Office of Procurement and Property Management
PCIE    President’s Council on Integrity and Efficiency
RBS     Rural Business-Cooperative Service
RD      Rural Development
RHS     Rural Housing Service
RMA     Risk Management Agency
RUS     Rural Utilities Service
SEC     Office of the Secretary
USDA    U.S. Department of Agriculture
USSS    U.S. Secret Service
WFIT    Wildland Fire Investigations Team




                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 1st Half   39
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS
REPORTING PERIOD (142 TOTAL)
n	APHIS agreed to issue policy to clarify CBP’s                             n	FS agreed to determine the most cost-effective
   responsibilities for Transportation and Exportation                          marketing methods for surplus properties
   permits that allow prohibited and restricted agricultural                    that are best suited for the agency and will
   commodities to be trans-shipped across the country                           obtain the best prices for the property.
   to foreign destinations, and for the handling of seized
                                                                             n	FS agreed to (1) conduct management reviews
   agricultural products at ports of entry. APHIS also agreed
                                                                                of the fleet credit card operations and
   to develop a process to allow both agencies to assess the
                                                                                (2) strengthen controls over fleet credit cards and
   risk of agricultural products entering the country by rail.
                                                                                how PCMS is used to monitor those cards.
n	RMA agreed to issue a notice to advise insurance
                                                                             n	RD agreed to ensure that adequate documentation
   providers of the unacceptable documents that have
                                                                                is maintained to verify that all controls in the
   been used and to clarify what documents are acceptable
                                                                                DLOS security plan were implemented; perform a
   for substantiating AGR policies and claims.
                                                                                C&A that fulfills the requirements of full system
n	USDA agreed to assign a senior-level official to                             accreditation; and ensure that the C&A includes
   coordinate with EPA’s Chesapeake Bay Program,                                adequate Security Testing and Evaluation testing
   and to direct agencies to expedite the development                           and appropriate supporting documentation.
   and implementation of outcome-based performance
                                                                             n	FS and RHS agreed to develop and implement controls to
   measurements to evaluate the effectiveness of
                                                                                ensure that the identification and reporting of improper
   their conservation efforts and programs.
                                                                                payments, including statistical sampling processes,
n	FS agreed to modify its policies that unduly                                 comply with all OMB and OCFO requirements.
   restrict the use of fire to reduce hazardous
   fuels (brush, dead trees) on FS land.



MISSION OF OIG
OIG assists USDA by promoting effectiveness and integrity in the hundreds of programs of the Department.
These programs encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal
and plant health, agricultural production, agricultural product inspection and marketing, rural development,
research, conservation, and forestry. They affect our citizens, our communities, and our economy.




OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our three strategic goals:

Support USDA in the enhancement of safety and security measures to protect
USDA and agricultural resources and in related public health concerns.

Reduce program vulnerabilities and enhance integrity in the delivery of benefits to individuals.

Increase the efficiency and effectiveness with which USDA manages and employs
public assets and resources, including physical and information resources.
        To learn more about OIG, visit our Web site at www.usda.gov/oig/home.htm

        How To Report Suspected Wrongdoing in USDA Programs

        Fraud, Waste, and Abuse

        In Washington, DC: 202.690.1622
        Outside DC: 800.424.9121
        TDD (Call Collect): 202.690.1202

        Bribes or Gratuities

        202.720.7257 (24 hours)
        888-620-4185 (24 hours)

        OIG Hotline Through the Web

        www.usda.gov/oig/hotline.htm




United States
Department of Agriculture

Office of the Inspector General

The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs
and activities on the basis of race, color, national origin, age, disability, and where
applicable, sex, marital status, familial status, parental status, religion, sexual
orientation, genetic information, political beliefs, reprisal, or because all or part of an
individual’s income is derived from any public assistance program. (Not all prohibited
bases apply to all programs.) Persons with disabilities who require alternative means
for communication of program information (Braille, large print, audiotape, etc.)
should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Director, Office of Civil
Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250-9410, or call
(800) 795-3272 (voice) or (202) 720-6382 (TDD). USDA is an equal opportunity
provider and employer.

May 2007
